<html>
<title> - OPEN FORUM: PUBLIC PERSPECTIVES ON HUMAN RIGHTS PRACTICES IN CHINA</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   OPEN FORUM: PUBLIC PERSPECTIVES ON HUMAN RIGHTS PRACTICES IN CHINA
=======================================================================



                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 9, 2002

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov











                           U.S. GOVERNMENT PRINTING OFFICE
85-358                         WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



Senate                               House

MAX BAUCUS, Montana, Chairman        DOUG BEREUTER, Nebraska, Co-
CARL LEVIN, Michigan                 Chairman
DIANNE FEINSTEIN, California         JIM LEACH, Iowa
BYRON DORGAN, North Dakota           DAVID DREIER, California
EVAN BAYH, Indiana                   FRANK WOLF, Virginia
CHUCK HAGEL, Nebraska                JOE PITTS, Pennsylvania
BOB SMITH, New Hampshire             SANDER LEVIN, Michigan
SAM BROWNBACK, Kansas                MARCY KAPTUR, Ohio
TIM HUTCHINSON, Arkansas             SHERROD BROWN, Ohio
                                     JIM DAVIS, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                D. CAMERON FINDLAY, Department of Labor
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State

                   GREG MASTEL, Acting Staff Director
                   JOHN FOARDE, Deputy Staff Director

                                  (ii)















                            C O N T E N T S


                              ----------                              
                                                                   Page

                               STATEMENTS

Foarde, John, deputy staff director, Congressional-Executive 
  Commission on China............................................     1
Adler, Alan, executive director, Friends of Falun Gong, Tenafly, 
  NJ.............................................................     2
Fu, Christina, spouse of Yang Jianli, imprisoned in China, 
  Brookline, MA..................................................     4
Senser, Robert A., editor, Human Rights for Workers, Reston, VA..     5
Oyunbilig, executive director, the Inner Mongolian People's 
  Party, Gaithersburg, MD........................................     6
Mower, Joan, communications coordinator, Broadcasting Board of 
  Governors, Washington, DC; accompanied by Brian Mabry, senior 
  advisor for external relations, Voice of America, Washington, 
  DC.............................................................     8
Ciping, Huang, the Overseas Chinese Democracy Coalition, 
  Federation of Chinese Students and Scholars, Senior Optical 
  Engineering Consultant, Whitehouse, OH.........................    10

                                APPENDIX
                          Prepared Statements

Adler, Alan......................................................    26
Fu, Christina....................................................    27
Senser, Robert A.................................................    29
Oyunbilig........................................................    30
Mower, Joan......................................................    31

                       Submissions for the Record

Nunez, Kery Wilkie...............................................    33
Togochog, Enhebatu, president, Southern Mongolian Human Rights 
  Information Center.............................................    34















   OPEN FORUM: PUBLIC PERSPECTIVES ON HUMAN RIGHTS PRACTICES IN CHINA

                              ----------                              


                        MONDAY, DECEMBER 9, 2002

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The open forum was convened, pursuant to notice, at 2:31 
p.m., in room SD-215, Dirksen Senate Office Building, John 
Foarde (deputy staff director) presiding.
    Also present: Greg Mastel, acting staff director and chief 
trade counsel, Senate Finance Committee; Susan Weld, general 
counsel; Matt Tuchow, Office of Representative Sander Levin; 
and Tiffany McCullen, U.S. Department of Commerce.

        OPENING STATEMENT OF JOHN FOARDE, DEPUTY STAFF 
     DIRECTOR, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Mr. Foarde. Ladies and gentlemen, good afternoon, and 
welcome to the open forum. I would ask you to take your seats, 
please. The panelists who are here in the room, if you could 
join us at the panel table.
    Once the panelists have taken their seats, I would ask you 
to turn your name tags around and have them face us so we can 
be sure we are addressing the right person.
    Again, good afternoon and welcome to the Congressional-
Executive Commission on China's open forum. We are delighted 
that our panelists are here and that people that are here 
attending in the audience are here with us this afternoon.
    This is the final public roundtable in the open forum 
format that we will have in this calendar year. But because we 
have considered it a very successful format, I am sure we will 
be having several next year along with our regular issues 
roundtables and the formal hearings that the Commission holds 
from time to time.
    I would like to introduce, immediately to my left, to your 
right, the acting staff director of the Congressional-Executive 
Commission on China, Greg Mastel, who masquerades in his other 
life as the chief trade counsel for the Senate Finance 
Committee and works for Senator Max Baucus. Greg, thanks for 
joining us today.
    And immediately to his left, to your far right, Susan 
Roosevelt Weld, who is the general counsel of the Commission.
    I would like to introduce our panelists, briefly, then we 
will do our usual procedure, which is to proceed from the 
window to the wall. We are obviously missing one, which is Dr. 
Greg Kulacki from the Union of Concerned Scientists. I am sure 
he will join us, and when he does we will give him a chance to 
make his presentation.
    Mr. Alan Adler is the executive director of Friends of 
Falun Gong USA. Ms. Christina Fu is from the Medical School at 
Harvard and is here in her own capacity today as the spouse of 
Yang Jianli, imprisoned in China. She will explain during her 
presentation.
    In the middle is Mr. Robert Senser, Editor of Human Rights 
for Workers here in the Washington area. Next to him, is Mr. 
Oyunbilig, the executive director of the Inner Mongolian 
People's Party, also from here in suburban Maryland. And Ms. 
Joan Mower, who is the communications coordinator for the 
Broadcasting Board of Governors here in Washington.
    The open forum works on the principle that we give you 5 
minutes to make an oral presentation, and when each panelist 
has had a chance to make his or her presentation, we then open 
it up to questions from staff on this side of the table, again, 
for 5 minutes each until we have gone through a couple of 
rounds.
    And as long as the conversation is good we will keep it 
going, and when we are pretty much out of steam we will call it 
off, or when 4:30 comes, whichever is first.
    So, pending Dr. Kulacki's arrival, I wonder if Mr. Alan 
Adler would like to open up the proceedings? You have lights in 
front of you that my colleague, Anne Tsai, is going to control.
    After 4 minutes, the yellow light will go on and that is 
your signal to wrap up your formal presentation. You can pick 
up some themes, if you would like, during the questions and 
answers.
    So, Alan, if you would go ahead, please.

 STATEMENT OF ALAN ADLER, EXECUTIVE DIRECTOR, FRIENDS OF FALUN 
                     GONG USA, TENAFLY, NJ

    Mr. Adler. Thank you for giving me the opportunity to speak 
to you today. My name is Alan Adler and I am the executive 
director of Friends of Falun Gong USA, a nonprofit human rights 
organization established by concerned citizens who support the 
freedom of belief of people who practice Falun Gong.
    With the abolition of the annual review of China's most 
favored nation [MFN] status, and with China's accession to the 
World Trade Organization [WTO], we would expect this esteemed 
Commission to aggressively advocate for basic freedom of belief 
in China.
    Unfortunately, reading this Commission's 2002 Annual 
Report, one gets another impression, at least in terms of the 
Falun Gong. Falun Gong was only mentioned in passing in various 
sections of the report when it should have, instead, been a 
focal point.
    Why does Falun Gong deserve more attention and advocacy? 
The sheer numbers of people affected make the persecution of 
Falun Gong the number one religious freedom violation in China 
today, and perhaps in the world.
    According to the reports from the Chinese Government's own 
statistics, prior to the ban there were 70 to 100 million 
people practicing Falun Gong in China. That is a group larger 
than most 
nations.
    When you consider that their family members, friends, and 
co-workers are also victimized, the numbers are absolutely 
staggering. The group of people affected becomes comparable to 
the population of the United States.
    This brutal suppression has targeted everyone from school 
children to judges. Some reports state that roughly half of all 
prisoners held in China's forced labor camps are Falun Gong 
adherents.
    Based on one estimate, this would put the number of Falun 
Gong in the camps at 2 to 3 million. Chinese police and guards 
routinely brutalize Falun Gong prisoners by raping women, 
binding people in torture devices for weeks on end, stripping 
them and leaving them outside in below-freezing temperatures, 
holding them in cages too small for their bodies, repeatedly 
and severely beating them, and so on.
    In recent months, we have received reports almost daily of 
people being tortured to death. There are event accounts of 
children in schools being forced to memorize poems denouncing 
Falun Gong, and of people being made to trample the photograph 
of the Falun Gong founder in order to enter train stations.
    Officials are given bonuses and promotions for successfully 
persecuting Falun Gong. This persecution has permeated every 
level and every facet of China's society.
    When one considers the gravity of this situation, the 
amount of media attention Falun Gong has received, and the 
extensive support of local and state governments, it becomes 
clear that this Commission and the Federal Government need to 
do more. You have a responsibility to put Falun Gong at the 
forefront when it comes to human rights and rule of law issues 
in China.
    I would like to make the following recommendations: That 
the Commission make Falun Gong a focal point in its work in 
future reports; that the Commission advise our President to 
speak out. He has met with Jiang Zemin three times this year, 
but has yet to make a public statement in defense of the 
largest persecuted group in China.
    That the Commission recommend a Senate hearing on this 
topic. The House has held a number of hearings and has recently 
lent unanimous support to House Resolution 188, yet the Senate 
has been curiously passive.
    The Chinese Government does not admit that they have a 
human rights problem, much less that they need to change. It is 
extremely difficult to engage in fruitful dialog to educate or 
to reason with a government that flatly denies and routinely 
whitewashes the grave violations that are occurring. Bold 
public international pressure may be the only true, effective 
means of change.
    Additionally, one of this Commission's recommendations was 
that corporations work to bring about change by giving 
recommendations to relevant Chinese Government entities.
    I have done business in China for over 30 years and have 
employed tens of thousands of people there. I have improved 
workers' rights to the best of my ability.
    However, I know that even one semi-public statement, such 
as posting my company's human rights policy in Chinese, would 
bring that factory to the immediate attention of the Public 
Security Bureau and the repercussions would be disastrous.
    This is just a simple illustration of the pressure that 
corporations are under to comply with the repressive 
environment.
    I feel that the idea of developing a long-term 
collaborative relationship between government and business is 
not a realistic approach. Corporations can do little to change 
the situation without strong support and advocacy on the part 
of our government. Thank you.
    [The prepared statement of Mr. Adler appears in the 
appendix.]
    Mr. Foarde. Thank you very much, Alan.
    Our next speaker is Christina Fu.

STATEMENT OF CHRISTINA FU, SPOUSE OF YANG JIANLI, IMPRISONED IN 
                      CHINA, BROOKLINE, MA

    Ms. Fu. I am Christina Fu, wife of Yang Jianli. On April 26 
this year, my husband was detained in Kunming, China, during a 
peaceful visit to his native country. Today marks the 227th day 
of his detention, and his whereabouts remain unknown.
    My husband is the president of the Foundation for China in 
the 21st Century, through which he promotes the cause of 
democracy in China. As a veteran of the 1989 Tiananmen student 
movement and an outspoken advocate for human rights in China, 
he testified before the Congress twice in 1989, and again in 
1996.
    It is commonly known that he is one of the 49 prominent 
dissidents who have been blacklisted by the Chinese Government 
and denied entrance to China since 1989.
    My husband is a permanent legal resident of the United 
States, but has remained a citizen of China. His decision to 
travel to China this spring was the result of his growing 
concern about under-
reported labor unrest and his strong belief that he has the 
right to go to his own country. That is guaranteed by 
international 
treaties.
    After my husband was detained and was being held in a hotel 
room, guarded by Chinese police officers, he spoke with me by 
phone. We spoke again the next day on the morning of April 27.
    Since that day, we have been unable to communicate with 
him. In the past 7 months, our family has been greatly 
concerned for my husband's well-being and safety. We have done 
everything we could to obtain information about him, but our 
basic rights were denied.
    We submitted 8 written requests, made more than 20 calls to 
the Chinese Embassy in Washington, DC, and made 6 visits to the 
various offices in China. I arrived in Beijing on May 23 and 
was expelled on the same day. My husband's brother traveled to 
Beijing four times from his home in Shandong Province to learn 
where my husband was being held, and tried to arrange for legal 
representation.
    No lawyers in China would accept this case, since there was 
no official record of arrest or a trial date. Chinese 
authorities and the Public Security Ministry, the State 
Security Ministry, the Foreign Ministry, and the Beijing Public 
Security Bureau would not provide any confirmation.
    We have been in close contact with the U.S. State 
Department, which has been very supportive. Despite their 
active involvement in the case, they have also been unable to 
obtain even the most basic information.
    Chinese law requires notification of detention within 24 
hours. Chinese law imposes a 37-day limit on detentions without 
a warrant. Chinese law requires that the detainee be permitted 
rapid 
access to legal counsel. China has not honored its own law with 
respect to my husband's case.
    He has not been permitted to communicate with anyone since 
his detention 7 months ago. Such an extended period of 
isolation from the outside world surely constitutes inhuman, 
cruel, and degrading treatment.
    Just today, my attorney, Jared Genser of Freedom Now, filed 
a petition to the U.N. High Commission on Human Rights' Working 
Group on Arbitrary Detention describing the violations of 
Chinese and international law in my husband's case. The 
petition will be attached with my statement.
    I am hopeful and appreciative of the many people working on 
my husband's behalf. I would particularly thank the more than 
40 Members of Congress from the Senate and House, Republicans 
and Democrats, who have written a total of 21 letters to both 
the Chinese and United States Governments to appeal for my 
husband's release.
    Supportive letters were also written by Archbishop Desmond 
Tutu, President Lawrence Summers of Harvard University, 34 
faculty of Harvard University, Chancellor Robert Berdahl of the 
University of California at Berkeley, and many others.
    Their efforts have given me much courage and hope during 
this very difficult struggle. Their help will have a direct 
impact on my husband's fate. I greatly appreciate the 
opportunity to inform the Congressional-Executive Commission on 
China of my husband's case and to appeal for help.
    It is also my hope that this Commission will continue to 
show concern about my husband's case and take advantage of the 
coming human rights dialog with China to press for my husband's 
release so that joy and peace will return to my children and my 
family. Thank you very much.
    [The prepared statement of Ms. Fu appears in the appendix.]
    Mr. Foarde. Thank you, Ms. Fu.
    Our next speaker is Bob Senser.

         STATEMENT OF ROBERT A. SENSER, EDITOR, HUMAN 
                 RIGHTS FOR WORKERS, RESTON, VA

    Mr. Senser. First of all, thank you very much for this 
opportunity to explore a crucial issue: How to evaluate or to 
assess progress made in China.
    I would like to emphasize the importance of using a 
standard that relies on basics. Jacek Kuron, a Polish 
intellectual who was also leader of the Solidarity movement, 
has provided a guide that meets this test. More than 12 years 
ago, at a conference not far from here, he outlined the two 
essential characteristics of totalitarianism.
    First, a monopoly of organization, a monopoly, in theory, 
so total, Kuron said, that if citizens gather freely and 
discuss freely a matter as simple as roof repairs on a block of 
condo apartments, this constitutes a challenge to the central 
authority.
    Second, a monopoly on information. Everything in print and 
in the electronic media has to be steered by the central 
authority. ``As a practical matter,'' Kuron added, ``this 
ideal, this model, cannot be followed in all of its fullness.''
    Of course, Chairman Mao went a long way toward doing so 
before his successors changed course. Unfortunately, although 
short of Mao's terrible extremes, the two basic elements of 
totalitarianism survive in modern China.
    As a practical matter, the regime has made selective 
exceptions to imposing the model in full. One exception that 
fascinates me is the American Chamber of Commerce in China, 
headquartered in Beijing. It enjoys the freedom to organize. 
Its members number more than 1,500, representing more than 750 
companies, small and large, throughout China.
    It enjoys freedom of information through a monthly 
magazine, through comprehensive analytical reports, through its 
Web site. The Chamber distributes its views not only among its 
own members, not only internally, but externally to many more 
people 
outside its ranks, including government officials at various 
levels.
    Some of these views are cautiously critical of the Chinese 
Government. Take its annual white paper on the climate for 
business in China. In analyzing labor conditions, for example, 
the Chamber praises positive developments benefiting business, 
but it also publicizes a series of complaints, such as that 
labor costs in China remain higher than those of many Asian 
countries and are rising steadily.
    Or take its latest report on China's compliance with WTO 
accession agreements. It praises China's serious commitment to 
meeting its WTO obligations, but also expresses many specific 
concerns in some areas where China may not yet be in full 
compliance with WTO commitments.
    On its Web site, in Chinese and in English, the Chamber 
publicly offers many other details on how it exists and how it 
acts as an enclave of non-totalitarianism in China. Indeed, 
that enclave offers an instructive model for what China must do 
to free itself fully from the shackles of totalitarianism.
    Now, in singling out the Chamber, I am, of course, not 
objecting to freedoms enjoyed by American and other foreign 
business people in China. It is just that their freedom stands 
out in such glaring contrast to how thoroughly, often brutally, 
the regime in China 
denies these same freedoms to its own citizens, including its 
working men and women in factories, fields, and offices. Such 
grossly unfair, discriminatory treatment cannot long endure.
    Thanks for this opportunity.
    [The prepared statement of Mr. Senser appears in the 
appendix.]
    Mr. Foarde. Thank you very much, Bob.
    Our next speaker is Mr. Oyunbilig from the Inner Mongolian 
People's Party.

   STATEMENT OF MR. OYUNBILIG, EXECUTIVE DIRECTOR, THE INNER 
           MONGOLIAN PEOPLE'S PARTY, GAITHERSBURG, MD

    Mr. Oyunbilig. First of all, I thank the Commission for 
giving me this opportunity to speak on the human rights 
situation in Inner Mongolia. My name is Oyunbilig. I came to 
the United States from Inner Mongolia in 1995 and now I am 
staying in the United States as a political asylee.
    Due to the limited time, I will get straight to the point. 
However, I do need to point out that the southern part of the 
Mongol land and its people have always been a part of the 
Mongol Nation that came to exist in the 13th century, and that 
is where the name Inner Mongolia came to be.
    In 1947, the Chinese Government set up the Inner Mongolia 
Autonomous Region against the will of the Mongol people. Since 
then, individual human rights have been deprived from the 
Mongols in Inner Mongolia, along with their political and civil 
rights as a people.
    Fore more than half a century, the Mongols in Inner 
Mongolia have witnessed the most horrifying events in our 
people's history: Mass killings of innocent civilians, total 
destruction of the religious establishments, calculated and 
forced cultural assimilation that brought the Mongol culture 
and traditions to the brink of extinction, and catastrophic 
destruction of the grasslands, just to name a few.
    Now I will present two cases as testimony to what we are 
very concerned about today. The first one, is the case of Mr. 
Hada and Mr. Tegexi. In 1992, Mr. Hada, Mr. Tegexi, and other 
Mongol 
students and intellectuals established the Southern Mongolian 
Democracy Alliance [SMDA].
    The goal of SMDA was to promote and preserve the Mongolian 
language, history, and culture in Inner Mongolia and to strive 
for civil and political rights for the Mongols.
    In December 1995, Mr. Hada, Mr. Tegexi, and over 70 members 
and supporters of SMDA were arrested after they organized 
peaceful demonstrations and student strikes at universities 
against the Chinese Government's oppressive policies toward the 
Mongols in Inner Mongolia.
    On December 6, 1996, Mr. Hada was charged with crimes of 
inciting separatism and was sentenced to 15 years in jail. Mr. 
Tegexi was accused of similar crimes and was sentenced to 10 
years in jail. Today, Mr. Tegexi's whereabouts are totally not 
known.
    According to Mr. Hada's wife, Ms. Shinna, he has been 
tortured by prison guards constantly and suffers from a number 
of physical illnesses. Ms. Shinna was also arrested several 
times for giving interviews to foreign media, including Voice 
of America [VOA] and Radio Free Asia [RFA].
    The bookstore they owned was shut down and left Ms. Shinna 
and their son Weylas, with no reliable sources of living. In 
2001, Mr. Hada's 16-year-old son Weylas was expelled from 
school without sufficient explanation from the school.
    Later, in December 2001, he was arrested for alleged 
robbery and sentenced to 2 years in jail, again, without proper 
trial. According to Ms. Shinna, prison guards also beat Weylas 
several times.
    The second case concerns the Chinese Government's ongoing 
effort to evict and relocate Mongol herders by force. In recent 
years, sandstorms originating from the north have become a big 
problem for China as they grow in calamity and frequency. 
Beijing is one of the major cities hit by the sandstorms 
because of its close proximity to Inner Mongolia.
    Government officials in Beijing had long ignored the 
problem until they were exposed to the threat of sandstorms. 
However, they put the blame on the Mongol herders and their 
animals instead of on their own policies toward Inner Mongolia.
    Since the early 1950s, the Chinese Government moved 
millions of Han Chinese into Inner Mongolia as an attempt to 
make the 
occupation of Inner Mongolia a fait accompli.
    Most of these Han Chinese are peasants, and their only 
means of life is to cultivate the land. Unsuited for 
agricultural cultivation that strips the land of its topsoil, 
the Inner Mongolian steppes were turned into patches of desert 
after only a few years of farming, the consequences of which 
are threatening China's capital now.
    The Chinese Government started a program to forcibly 
relocate Mongol herders 2 years ago under the pretext that the 
main reason for the sandstorms is over-grazing. According to 
the Xinhua News Agency, the program will resettle about 650,000 
people in 6 years, and most of them are Mongol herders. One of 
the nine prefectures of Inner Mongolia already declared a total 
ban on livestock herding.
    We have heard many reports from Inner Mongolia indicating 
that Mongol herders were asked to sell off their livestock and 
were forced off from their pastures into unfamiliar territory 
and an unknown lifestyle without any support from the 
government.
    Members of the Commission, Mr. Hada and Mr. Tegexi are two 
of the few political prisoners who are serving 10 or more years 
of prison terms in China. I would like to ask the Commission 
and the U.S. Congress to bring up their cases during their 
future contact with Chinese officials.
    I also ask you to urge the Chinese Government to stop the 
relocation program that is aimed at the Mongol herders and 
provide adequate support and subsidy for those who have already 
have been displaced.
    Thank you.
    [The prepared statement of Mr. Oyunbilig appears in the 
appendix.]
    Mr. Foarde. Thank you very much, Mr. Oyunbilig.
    Our next speaker is from the Broadcasting Board of 
Governors, but I am afraid I might have mispronounced your last 
name. So would you give it to me correctly?
    Ms. Mower. It is Joan Mower.
    Mr. Foarde. Mower.
    Ms. Mower. You can say Mower.
    Mr. Foarde. Mower is better. Mower it is. Joan Mower. Thank 
you, Joan.

     STATEMENT OF JOAN MOWER, COMMUNICATIONS COORDINATOR, 
BROADCASTING BOARD OF GOVERNORS, WASHINGTON, DC; ACCOMPANIED BY 
                      BRIAN MABRY, SENIOR 
 ADVISOR FOR EXTERNAL RELATIONS, VOICE OF AMERICA, WASHINGTON, 
                               DC

    Ms. Mower. Thank you very much.
    I am the communications coordinator with the Broadcasting 
Board of Governors [BBG], which is an independent Federal 
agency supervising all U.S. non-military international 
broadcasting, 
including Voice of America and Radio Free Asia.
    I note that in a recent op-ed piece that Senator Baucus and 

Congressman Bereuter wrote, they said that VOA and RFA provide 
many ordinary Chinese with their only source of objective, 
uncensored news. That is true.
    Your bosses also say, ``We believe the audience will only 
grow if we increase funding and improve programming.'' Again, 
that is true. But audiences will grow much greater if we can 
get rid of one problem, one major problem, which is jamming of 
all of our broadcasts into China.
    We work with the Federal Communications Commission and we 
have determined that virtually all VOA and RFA short-wave radio 
transmissions into China, in the Cantonese, Mandarin, Tibetan, 
and Uighur languages, are jammed. That means virtually all of 
them have problems getting in.
    Unfortunately, jamming seems to be on the rise, even though 
we are seeing increased commercial and diplomatic contacts 
between the United States and China. In Lhasa, for instance, 
Tibet's capital, it is almost impossible to get a good VOA 
reception in Tibetan, even though we are broadcasting on three 
to five frequencies, 
depending on the time of day.
    As has been widely reported, the Chinese are also blocking 
our Internet sites, www.voa.com and www.rfa.org. We are not 
alone in that. Harvard Law School just reported there are 
19,000 sites that the Chinese are blocking.
    But it is really a problem as we try to provide the Chinese 
with news over this very popular and fast-growing Internet. We 
also have e-mail subscription services that are blocked.
    You might ask, why is this a problem? Well, like all 
Americans, we believe that everyone is entitled to factual, 
uncensored information. In fact, our mission is to promote and 
sustain freedom and 
democracy by broadcasting accurate and objective news and 
information about the United States and the world. So, it is a 
human rights issue.
    Second, it is a big issue for the United States Government 
because the Chinese are not getting a clear view of what the 
United States policies and our policies are.
    We have a recent survey that showed 68 percent of urban 
dwellers in China consider the United States their country's 
No. 1 enemy. It does not take a rocket scientist to figure out 
that that is not a good thing. At a time when we have got a war 
on terrorism going on, to have 18 percent of the world's 
population ill-informed about the United States, about our 
culture, about our democracy and our freedoms, that is not 
good.
    On a related issue, we consider the Chinese actions 
incredibly unfair. While China is blocking and jamming our 
information and news, we are allowing CCTV, which is the 
government television channel on many cable systems across the 
United States, and China Radio International, is also 
broadcasting on a mix of AM and FM radio stations in our 
country.
    Of course, we are a country that supports freedom of 
information, so we would not have it any other way. But there 
is something patently unfair with us allowing them to have 
basically access to all of our outlets, while we are unable to 
broadcast into China.
    At the same time, Voice of America and Radio Free Asia are 
severely restricted in the number of journalists that work in 
China. We are trying to get two more visas. We only have two 
journalists currently working in Beijing on a full-time basis, 
but China will not give us additional visas to put people into 
China. This is at a point where the United States also allows 
the Chinese Government to have at least 40 journalists working 
unfettered in our country.
    So what can be done? At a minimum, we have approached the 
Bush Administration. They are very supportive of us and we are 
hopeful that they will raise this agenda diplomatically so that 
we might get some action.
    We also work with the FCC to file harmful interference 
reports with the International Telecommunications Union. We 
have been doing this since August 2000. The Chinese have 
recently acknowledged these reports that we file. They claim, 
somewhat disingenuously, that, ``Oh, the problem is, we are 
mixing signals, that they come on our signal.'' But our 
engineers say that that is basically not true.
    It costs us a lot of money to overcome jamming. We spend 
about $9.5 million of taxpayers' money to go in on 100,000 
hours of VOA and RFA broadcasting, which means we have all 
different kinds of transmissions just to get into the country.
    Finally, we are working with research, experimenting with 
different proxy servers and mirror Internet sites to try to get 
through the Bamboo Curtain. But what really needs to happen, is 
we need to have a concerted congressional-executive strategy to 
deal with this issue, to raise it in the public's mind at 
hearings, discussions, put it on the agenda, and let us really 
focus on what is happening there with Radio Free Asia and Voice 
of America.
    Thanks very much.
    [The prepared statement of Ms. Mower appears in the 
appendix.]
    Mr. Foarde. Thank you, Joan.
    Our next speaker is Huang Ciping, who wears a number of 
hats and represents a number of very fine organizations. Most 
recently, she has taken on a senior role at the Wei Jingsheng 
Foundation, and we are very happy to have you today.

        STATEMENT OF HUANG CIPING, THE OVERSEAS CHINESE 
    DEMOCRACY COALITION, FEDERATION OF CHINESE STUDENTS AND 
SCHOLARS, SENIOR OPTICAL ENGINEERING CONSULTANT, WHITEHOUSE, OH

    Ms. Huang. Thank you very much. To the Congressional-
Executive Commission on China, I would like to talk about the 
Olympic Games in Beijing in 2008. I am the secretary general 
for the Overseas Chinese Democracy Coalition, and I thank you 
very much for providing me this opportunity today at this forum 
to speak up for the suppressed Chinese people with regard to 
their human rights and religious rights.
    I am asking you to pay attention to the Olympic Games in 
2008 with regard to Chinese human rights conditions. When 
conditions permit, I hope you could cooperate with the 
International Olympic Committee in an effort to push for 
Chinese human rights improvement instead of deterioration.
    This speech is a collective cooperation and response from 
several Chinese organizations which include the Overseas 
Chinese Democracy Coalition, the Committee to Investigate 
Religious Persecution in China, the Independent Federation of 
Chinese Students and Scholars, and the Wei Jingsheng 
Foundation.
    Because we did not have the opportunity to present to you 
in last month's roundtable about the Beijing 2008 Olympic 
Games, we are here to present our opinion and the concerns 
regarding the Olympic Games which will be held in Beijing in 
the year 2008.
    This opinion represents the views of many of our fellow 
Chinese, including the underground Chinese Christians 
persecuted in China, which are in very bad shape, and we really 
urge you to pay attention. We urge the international community 
to pay attention as well.
    Last year, as most of us know, unfortunately, the rights of 
hosting the 2008 Olympic Games was offered to the dictators of 
the Chinese Communist Government, just as what has happened in 
1930 to Nazi Germany, and in 1980 to the former Soviet Union.
    We wanted this honor to go to a democratic China. 
Unfortunately, at the present situation, the Chinese Government 
has been suppressing the Chinese and there is not much hope for 
democracy in China at this time.
    From history we have learned that when the glory and 
reputation of the Olympic Games are used for evil identity and 
evil attention, the people will suffer. World peace will be in 
jeopardy as well.
    Nevertheless, the International Olympic Committee [IOC] 
decided on Beijing to be the hosting city. The resentment of 
people in Beijing has been widely reported because of all the 
face-lifts 
ordered by the Chinese Government.
    In particular, we are concerned that that fact has been 
used by the Chinese Government as an excuse to further suppress 
the 
Chinese people, especially Chinese Christians.
    We have obtained a secret document from the Chinese 
Government that, in the name of welcoming the success of 
receiving the award of the 2008 Olympic Games, instructs 
officials to maintain social order, to severely attack 
``illegal rallies, gatherings, and all other activities that 
disturb social order.'' Those kinds of secret documents have 
been used to suppress the religious people, including the 
Christians.
    Hereby, we urge the CECC to pay close attention in this 
form of human rights abuses in China in the noble name of the 
Olympic Games. Whenever possible, we wish you could try your 
best to present our views to the IOC and to the whole world, 
and to 
enforce such a monitoring process, together or separately.
    Since July 2000 we have been, and still are, appealing to 
the IOC to establish a human rights monitoring committee or 
establish such a functionality in a similar fashion as the CECC 
to reveal the Chinese human rights conditions prior to the 
Games with the capacity of revoking the hosting rights.
    Also, although we have not been able to reach our goal and 
we feel that human rights condition in China has been 
deteriorating since, we still push for such a goal. We hope the 
CECC will maintain a close relationship with members and 
leaders of the IOC and set up a good example in this regard.
    Thank you very much.
    Mr. Foarde. Thank you very much, Huang Ciping. We will come 
back to some of those themes in the question and answer 
session.
    I would call, if he is in the room, on Dr. Greg Kulacki. If 
you are here, you can come forward.
    [No response].
    Mr. Foarde. Evidently he is not here, so we will go right 
to our question session. As I said before, each of the staffers 
up here will have the opportunity, if they wish, to pose a 
question to one or all of you. We will have 5 minutes each to 
ask the question and hear the answer.
    I think I will begin by asking for some clarification on 
some points from Alan Adler, if you please. Is the Friends of 
Falun Gong an organization of practitioners of Falun Gong or 
people who are not practitioners, but are friendly to that 
movement?
    Mr. Adler. They are not practitioners.
    Mr. Foarde. As a friend of people who practice Falun Gong 
in China, would you describe Falun Gong as a religion or as 
something else?
    Mr. Adler. I would not describe it as a religion. It is 
based on ancient Chinese exercises, Qi Gong, its cultivation 
practice. It is a very simple way for people to remain fit. The 
principles of truthfulness, benevolence and forbearance are 
elaborated and explained in a book. It seems to be a very 
simple thing. I often describe it as just an advanced form of 
Tai Qi.
    Mr. Foarde. So there is no belief system or no worship, as 
such?
    Mr. Adler. Absolutely not.
    Mr. Foarde. It is simply a physical and spiritual 
cultivation practice.
    Mr. Adler. There is a lot of respect for the man who 
brought this public, an enormous amount of respect. We find it 
to be a profound doctrine. Friends of Falun Gong does not 
really advocate for the practice, although we find it is very 
socially redeeming and good for the people who do it.
    Mr. Foarde. So, just to clarify, you are not a practitioner 
yourself, for example?
    Mr. Adler. I am the one exception, probably, or one of the 
few exceptions. I volunteer my time. I believe, as soon as 
there is some funding and others can do what I do and they can 
hire someone, I will stop.
    Mr. Foarde. You have been doing business in the PRC for 
quite some time, according to your statement.
    Mr. Adler. Yes.
    Mr. Foarde. You do not seem very positive about the idea 
that government, business, and perhaps other interested parties 
in the United States could cooperate on a strategy to try to 
advance the types of issues that would help obtain for Falun 
Gong practitioners in China, for example, freedom of 
association, freedom of expression, et cetera, unless I 
misunderstood you.
    Mr. Adler. I think you did.
    Mr. Foarde. All right.
    Mr. Adler. I do not believe that corporations can do it by 
themselves. We need a lot of government support. We would like 
to hear the Senate, hear the President, hear people, or give us 
some sort of mandate or regimen to follow.
    When I go in and I try to post my human rights policies, I 
just cannot. It is impossible. Everything has to be verbal. I 
have no way of monitoring it. I really do not feel that I have 
my government's support. The factories that I do business with 
would be out of business very quickly if I posted a doctrine in 
Chinese providing them any sort of safety.
    Mr. Foarde. I have a couple of seconds left, so let me try 
another question. To Christina Fu, please.
    Has the Chinese Government said formally, either to Dr. 
Yang Jianli or to you, that he is on a blacklist that would not 
permit him to travel to China?
    Ms. Fu. No.
    Mr. Foarde. No. So there has never been any formal 
statement of that?
    Ms. Fu. No. There is no formal or written statement from 
the Chinese Government.
    Mr. Foarde. Has his passport been revoked, or has he tried 
to apply for a Chinese passport since he first came to the 
United States as a student?
    Ms. Fu. I do not remember when exactly he did it. I know 
the blacklist was revealed in 1994 by Human Rights Watch and 
Human Rights in China, and there was a press conference on a 
right to return to China and a right of freedom to go back to 
the homeland. So, it was quite public.
    Mr. Foarde. These are things, of course, that our 
Commission members very much support, the right of freedom to 
travel, and certainly the right and the freedom of the Chinese 
people to return to China if they are studying abroad or 
visiting abroad.
    In the case of Dr. Yang Jianli, he has never formally tried 
to apply for a passport or to get his own travel document to 
return to China?
    Ms. Fu. I do not remember when exactly he submitted a form. 
I know the Chinese consulate did not even give him a chance for 
that.
    Mr. Foarde. How did he travel to China back earlier this 
year when he went? What did he use to travel? Did he use his 
green card?
    Ms. Fu. He did carry his green card and he used that.
    Mr. Foarde. What did he use to enter China?
    Ms. Fu. As far as I know, he used a friend's passport.
    Mr. Foarde. So a passport that did not belong to him.
    Ms. Fu. Yes.
    Mr. Foarde. All right. I am almost out of time, so we will 
go on.
    Greg.
    Mr. Mastel. Ms. Fu, you mentioned that your husband went to 
China to investigate labor unrest. Can you tell us a little bit 
more about what brought him to China, what he was looking into?
    Ms. Fu. I actually do not know what exactly he was 
thinking. But for the 3 months before he left Boston, he had 
been constantly talking with friends on the phone or in his 
office about this not-reported or under-reported labor unrest. 
He was very concerned because we heard that almost 70 percent 
of workers were laid off in that part of China.
    Mr. Mastel. Ms. Mower, do you have any estimate now of how 
large your listenership is in China?
    Ms. Mower. I do not. Let me ask Brian Mabry, who works at 
VOA. It is about 5 million, which is large, but it is not that 
large for China. Not nearly as large as it could be.
    Mr. Mastel. In your testimony you mentioned some 
technological approaches to try to counter jamming. Can you 
explain a little bit more about that? Is there any potential 
for that to be an 
answer to some of your problems in China?
    Ms. Mower. What I was referring to was actually what we're 
doing with e-mail servers and mirror Internet sites. In talking 
to the engineers--and I would have to get back to you on this--
I do not know what you can really do to stop jamming.
    I understand that jamming is all kinds of things, like 
Chinese opera at strange hours. You will be listening to the 
station and you will hear thuds, or you will hear Chinese 
opera.
    I do not know what you can really do to stop it, other than 
go in on other frequencies. Of course, we follow all of the ITU 
regulations. It is all done by the international organizations 
to make sure that we are on the legal frequencies that are 
granted to us.
    Mr. Mastel. You were talking about what you are doing on 
the computer.
    Ms. Mower. Yes. Again, I am not an engineer and I am not an 
Internet expert. I am basically the PR person. So, I would be 
happy to provide a paper for you on that. We actually do have 
those, and I can get your e-mail and I will get you that this 
week.
    Mr. Mastel. But it sounds like you do not foresee much 
potential there.
    Ms. Mower. I think there are actually some very promising 
things that we are doing with the Internet. I think there are 
mirror sites, and I think we have just hired a new contractor 
who is doing some exciting work in trying to make sure that we 
can find sites that are blocked and get our stuff in.
    So, I think we are actually working on some interesting 
things, I just do not know the details of them. But I will get 
those for you.
    Mr. Mastel. Thank you.
    Mr. Senser, your testimony about the American Chamber of 
Commerce in China was very interesting. If in fact the Chinese 
are allowing more access by the Chamber, why do you think that 
is? I mean, obviously they criticize the Chinese Government, 
too. Why do you think they see them as a less threatening 
category than 
others?
    Mr. Senser. Well, that is a very interesting point here. 
The Chinese Government obviously feels they have an ally that 
will continue to support the enormous infusion of American 
resources into China. For example, $400 million a day, every 
day of every week of exports from China imported into the 
United States.
    That is a big chunk of help. If Adolf Hitler had it, he 
would have gone beyond the support he got from German business 
and he would have turned to American business, too.
    Mr. Mastel. But I guess my question is--I actually read the 

report you referred to from the Chamber of Commerce which 
criticized the Chinese in a number of respects in terms of the 
WTO 
accession.
    As you say, totalitarian governments are not fond of 
tolerating dissent. Why would these critiques be all right, and 
why would the Chinese be willing to tolerate these critiques?
    Mr. Senser. Well, first of all, I tried to show that they 
are rather mild. The Chamber has to do something to defend its 
own interests, and they are doing that, but the support that 
China is getting makes it bearable.
    Mr. Mastel. One last question, quickly, and it is probably 
a long question for Mr. Adler. Maybe you can give me a short 
assessment. As someone who is a friend of Falun Gong and a 
long-time businessman in China, I have always been curious as 
to why the Chinese Government took such interest in Falun Gong. 
It seemed to always be, to me, for lack of a better term, 
exercise movement as well. Why, in your opinion, has it become 
such a focus of the 
Chinese Government?
    Mr. Adler. I believe it is directly attributable to a 
twisted, paranoid leader. There is not much more to it than 
that. For some reason, his jealousy or whatever motivated him, 
he picked Falun Gong. There is no other reason. These are good 
people, just trying to be better people. They are basically not 
against the government. I never understood it either.
    Mr. Foarde. Susan Roosevelt Weld.
    Ms. Weld. Thanks a lot. If I can just follow up on that, do 
you see any change in the leadership's attitude after the 
change in leadership at the 16th Party Congress?
    Mr. Adler. I think it is possible that the 16th Party 
Congress might have made it even worse. He seems to have 
retrenched himself and we see very little change coming from 
it.
    Ms. Weld. Thank you very much.
    I have a question for Ms. Fu. Did your husband make efforts 
to go back to China legally before this time when he used the 
friend's passport?
    Ms. Fu. The only time he showed me a piece of paper was 
when he applied for a visa to Hong Kong in 1996 using his 
American travel documents, and he was rejected.
    Ms. Weld. He was refused. Thank you very much.
    Now, this is a question for Mr. Oyunbilig. I am wondering 
several things. One, is the pace of government-sponsored Han 
migration to Inner Mongolia keeping up at the same level now as 
it was in the past? How is the pace of that going on?
    Mr. Oyunbilig. According to the latest census, the pace has 
somewhat slowed down. But I think that is mainly due to the 
fact that there are already so many people in Inner Mongolia, 
about 25 million.
    Before 1950, there were only a few million Mongols. The 
Mongolian population was more than 80 percent, 90 percent 
before 1950. Now the Mongolian population is less than 20 
percent.
    Also, 18 out of 100 of the poorest counties in China are 
located in Inner Mongolia, so that may stop a lot of people 
from going to Inner Mongolia.
    There are still a lot of people going to Inner Mongolia 
from other provinces because recently there has been a huge 
natural gas reserve that was discovered right in my hometown. 
All of the people who are working on that are Han people from 
inland China. The Mongols are not getting any jobs.
    Ms. Weld. Another question for you. In educational matters, 
is the Mongolian language used in the schools? Or what are the 
rules as to using Mongolian language in the schools and selling 
books, and so on?
    Mr. Oyunbilig. There are still schools using the Mongol 
language to teach. But enrollment is not very good right now 
because if you go to a Mongolian school, if you graduate only 
from a Mongolian school, you cannot get a better job because 
your Chinese language is not good. In China, if you do not 
speak Chinese well, there is no chance of getting any jobs.
    Also, if you graduate from a Mongolian high school, it is 
really hard for you to get to a good university and pursue a 
better education. So, enrollment is now very low and a lot of 
young people do not speak the native language any more. That is 
very disturbing for us.
    Ms. Weld. Thank you very much.
    Now, Ms. Mower, I want to ask you, the 5 million figure you 
gave us was for a radio audience.
    Ms. Mower. Yes. Right. VOA and RFA.
    Ms. Weld. How about hits on the Internet sites, for those 
people who are able to get into it? I mean, what is the total?
    Ms. Mower. Brian, do you have those?
    Mr. Mabry. The best number we can give you, we cannot talk 
Internet hits, but we send about over 300,000 e-mails daily 
with a news summary that is getting out there.
    Ms. Weld. Yes, I have seen that.
    Mr. Mabry. On hits, there is such a wide variance in 
numbers, we cannot agree on what constitutes a hit and whether 
it is coming from China or whether it is coming from anywhere 
else in the world.
    Ms. Mower. Right. And we have got two different sites, both 
VOA and Radio Free Asia.
    Ms. Weld. Right. Thank you very much.
    I was thinking, Huang Ciping. I was wondering, as far as 
the Olympic Games go, whether there could be any interlock 
between the freedom of information, such as Ms. Mower talks 
about, and having the Olympic Games in China. Is there any 
requirement one could put on China to allow no jamming of such 
things as Voice of America and Radio Free Asia at the time, 
certainly, of the Olympic Games?
    Ms. Huang. Yes. That is what we felt like. There are two 
documents that we filed with the international committees, 
particularly the IOC, with regard to our detailed requests. Of 
course, the CECC could help us to achieve this. In particular, 
especially before the games and during the games, the Chinese 
Government would use order as an excuse to round up dissidents, 
et cetera.
    But when they were trying to gain the rights to host the 
games, they promised they would protect people's rights. So we 
feel very strongly that the international community must keep 
the Chinese Government in line with their promises, including 
that they must guarantee not to restrict people's mobility 
during the games, and that includes political dissidents.
    Another thing is about information flow. You must allow 
free broadcasting, at least during the games, which sometimes 
you would see. That had happened before, and this is the 
opportunity for doing so.
    Ms. Weld. Thank you.
    Mr. Foarde. The next questions will come from our friend 
and colleague, Tiffany McCullen, who works for Grant Aldonas, 
the Under Secretary of Commerce for International Trade, and 
one of our commissioners.
    Tiffany.
    Ms. McCullen. Thank you. Alan, actually, I have a question 
for you. You mentioned wanting government support for, was it 
human rights issues in China? I was not exactly sure.
    Mr. Adler. Yes.
    Ms. McCullen. If that was the case, then what type of 
support do you think would be helpful, if you have anything in 
mind?
    Mr. Adler. Well, I am here specifically recommending human 
rights for Falun Gong practitioners, although it probably 
applies to others. We feel that the most important thing would 
be to have our President say something.
    He has met with Jiang Zemin three times this year. There is 
a lot of dialog. He has not uttered the words ``Falun Gong,'' 
has shown no support. The people over there who are suffering 
take great comfort when they know that their suffering is not 
going 
unnoticed.
    We think, also, raising public awareness here on the 
persecution over there, the staggering numbers. We have had 
some success in the House, but no hearings in the Senate, no 
resolutions. It is as though Falun Gong persecution does not 
exist in the Senate. If they do not speak up, the Chinese 
Government seems to brutalize these people unfettered.
    Ms. McCullen. Thank you.
    I have one question for Joan. Joan, I was wondering, have 
you all done any studies to find out how many people actually 
use short-wave in China? Also, is there any way that you are 
able to advertise the services that you offer in China so 
people are aware of them?
    Ms. Mower. I think we probably have estimates on short-wave 
users, which I will also get for you. I am sure we have got 
that.
    In terms of advertising, no, we are unable to advertise. In 
fact, there was a recent case in which we were going to put a 
program on. I cannot remember what it was. Anyway, they asked 
us to remove the VOA logo, which kind of defeats the purpose, 
but not really. So, no, we do not advertise.
    Ms. McCullen. All right. Thank you. That is all I have.
    Mr. Foarde. Our next questioner is our friend and 
colleague, Matt Tuchow, who represents Congressman Sander 
Levin.
    Mr. Tuchow. My first question is for Mr. Adler also. I was 
wondering, the Falun Gong movement seems to be particularly 
well organized. I was wondering, is there any sort of political 
committee of Falun Gong, either here in the United States or 
with regard to Chinese affairs? How is it so well organized?
    Mr. Adler. I do not know that it is so organized. It 
appears organized because I think of the organization of the 
Chinese Government and their persecution. So I think, really, 
all that is going on, is that we are able to report and able to 
get the information into China.
    There are several programs that help us get the information 
so the persecution, at least in China, is being reported. I 
think over here there is just a group of volunteers who are not 
organized. Most of us met in Washington, DC.
    We came here because we knew what Falun Gong was, and there 
was nothing wrong with it. I think that we are just people of 
good conscience. We just came here. That is where we began to 
meet, and we communicate through the Internet in terms of any 
progress we might be able to make. But there is no 
organization. I am strictly a volunteer. I will relish the day 
when I can just go back to my full-time, paying job.
    Mr. Tuchow. In China, I believe there have been several 
incidents where TV programming was--I do not know if it was 
blocked or there was Falun Gong information placed on this. Can 
you explain what that was and whether that emanates from the 
Falun Gong movement's leadership, or what?
    Mr. Adler. No. What happened, was they were able to somehow 
climb up and get into the cable lines and broadcast for about a 
half an hour. When they were able to do that, it was reported. 
It was reported over the Internet and through e-mails, through 
telephones.
    Other people thought, that's a great idea to let the people 
in China actually know what is happening. It's a one-sided 
thing there with propaganda. I think, when people are able to 
see a good thing work, they just, all over the country, started 
to do it, and will continue to do it, I assume.
    Anything that works and is successful in combating this 
brutal persecution seems to be picked up by all those who can 
do it. Most of them end up going to jail and worse because they 
get caught. There is no way of doing it without getting caught. 
They have all received stiff prison sentences.
    Mr. Tuchow. And, finally, with regard to corporate social 
responsibility in China, my understanding is a number of 
companies that source from China have codes of conduct which 
they require their suppliers to follow, and they even include 
compliance with internationally recognized human rights 
standards.
    Do you do that with your suppliers in China?
    Mr. Adler. First, I have never seen any of those documents, 
and certainly have never seen any of them in Chinese, and have 
never seen any of them posted anywhere.
    The most that I have seen, is that some of the socially 
responsible mutual funds have posted their human rights things 
in terms of what companies they will invest their fund's money 
in.
    But I think any company that posts human rights policies, 
internationally accepted human rights policies that protects 
the workers, that place will be closed very quickly and they 
will be out of business. I would like to see it, though, if you 
know of any.
    Mr. Tuchow. Do you have any other suggestions of how 
American companies should promote human rights in China?
    Mr. Adler. I basically feel, as a free trader, that through 
trade it will work eventually. That is just my own personal 
opinion. But not without strong government support. I think 
there has to be continued dialog. I find what is happening, is 
they are selling to, besides the United States, many of the 
other countries.
    The other countries sort of look to us for moral leadership 
and there is none being given. A little bit in the House, but 
as far as the President, our President speaking out, clearly, 
at least on the Falun Gong issue, it has not happened.
    Mr. Tuchow. I have a quick question for Christina Fu. With 
regard to your husband, have you or anyone else in your 
husband's family received any written arrest warrant yet?
    Ms. Fu. No.
    Mr. Tuchow. And has anyone in your family been able to 
visit him in his detention or arrest?
    Ms. Fu. No.
    Mr. Tuchow. No. All right. Well, I see the yellow light is 
on.
    Mr. Foarde. Thank you for ceding the floor, anyway, seeing 
that the inevitable is coming up.
    Let me follow up with Christina Fu, please. I just want to 
be clear. The authorities have said absolutely nothing formally 
to your family, either in China or to you here.
    Ms. Fu. There was a phone call.
    Mr. Foarde. There was a phone call.
    Ms. Fu. Yes. To my husband's brother on June 21. It was the 
local police from Linyi City in Shandong Province. They phoned 
his brother and told him that Yang Jianli was formally arrested 
on June 2 and was being held in the Beijing Public Security 
Detention place. After that, Jianli's brother went to Beijing, 
went to a detention place, and visited two offices. They could 
not find him.
    Mr. Foarde. So your family does not really know whether 
Dr. Yang is there in Beijing in the public security detention 
or anything else.
    Ms. Fu. That is right.
    Mr. Foarde. And you have received nothing.
    Ms. Fu. I have received nothing.
    Mr. Foarde. Is it your understanding that Chinese law 
requires a formal notice to the spouse or family member when 
someone is arrested like this, formally arrested?
    Ms. Fu. Yes. Under the Criminal Procedure Law, Article 64.
    Mr. Foarde. But you have received nothing.
    For Bob Senser, please. You used, and explained why you 
were using, the AmCham in Beijing as an example of an 
organization that--I am probably putting more words in your 
mouth than you actually said--but it really has essentially 
extraterritorial privileges because it is able to organize 
itself and petition the government for redress of complaints 
and things of that sort.
    I am just wondering if there are other foreign 
organizations, either chambers of commerce or other ones in 
China that you are aware of that have more or less the same 
privileges as the AmCham seems to have, in your view.
    Mr. Senser. The short answer to that is ``yes.'' This 
includes, for example, in areas where there are known 
sweatshops, publicized and documented sweatshops, whose 
managers are Koreans and Taiwanese.
    They have the contracts with American companies and they 
are able to meet, probably informally, and lobby their 
interests, which in one case included making sure that fire 
inspections were not made of their factories. We used the 
example of the Chamber and there are similar organizations, 
business organizations.
    But I think we cannot be too pessimistic. There are a lot 
of possibilities for progress. I guess I used the AmCham as a 
template for what is possible. I understand recently the Lion's 
Club was officially recognized. Now, this is a Lion's Club of 
China.
    In other words, some of these organizations are getting 
that privilege, too, of organizing themselves. There are NGOs 
and lawyers groups of Chinese working on these problems.
    So there is a possibility for change coming from Chinese 
sources, too, and not just because of American pressure, 
although I agree with the point that external pressure is very 
important, as it was in South Korea and in Taiwan.
    Mr. Foarde. The Chinese labor activist, Han Dongfang, has 
been advocating for some time that on the specific question of 
workplace health and safety issues in China, that workers be 
allowed to actually do what is in the new workplace health and 
safety law, and that is establish worker safety committees in 
their factories.
    How optimistic are you that this might be able to happen, 
given that you see that there is some progress or some reason 
to hope for progress, but still nothing like full ability to 
organize on the part of workers and the ability to represent 
themselves?
    Mr. Senser. It is a very good move, and a very smart move. 
It is half a loaf, but it is a very good idea. Han is not alone 
in pursuing that. In mainland China, Chinese lawyers are 
pushing that. After all, who can be against increasing 
awareness on health and safety, and who is a better source of 
knowing what is going on in the plant than the workers?
    Mr. Foarde. My time is almost up, so I will pass it on to 
Greg.
    Mr. Mastel. Thank you.
    Mr. Oyunbilig, if I understand your answer to the last 
question correctly, are 80, 90 percent of the population of 
Inner Mongolia now Han Chinese? Is that correct?
    Mr. Oyunbilig. That is correct, sir.
    Mr. Mastel. Tell me a little bit about what the ultimate 
objectives of your organization are. If, in fact, Mongols are a 
minority now in Inner Mongolia, in an ideal world, what would 
you like to see? What changes would you like to see? Are you 
seeking independence?
    Mr. Oyunbilig. Seeking independence may be our dream or our 
ultimate goal, but it does not seem very practical at this 
moment.
    First of all, I would like to see that basic human rights 
in Inner Mongolia are respected, and the Mongols are getting 
what the Chinese Constitution states.
    Inner Mongolia is still called the Inner Mongolia 
Autonomous 
Region, according to the Chinese Constitution. The autonomous 
region and its people deserve civil, political, and otherwise 
autonomous rights. So, I would like to see those rights 
materialize.
    Mr. Mastel. I see. So to summarize, you are just saying you 
would like to see the Mongol people have the rights that they 
are granted under the Chinese Constitution.
    Mr. Oyunbilig. That is the first thing.
    Mr. Mastel. All right.
    What are the next steps?
    Mr. Oyunbilig. The next step. The constitution of my 
organization states that we strive for the independence of 
Inner Mongolia, but that is my organization. That is the 
ultimate or higher dream.
    Basically why we say that is because it seems like we have 
been trying with this autonomy for many years and it did not 
bring us any good. The situation is getting worse and worse, 
and basically our people are pushed aside and our culture and 
tradition are near extinction.
    Mr. Mastel. Now, the Han influx that you talked about. I 
think you alluded, though, that part of that is a result of the 
Chinese Government policy or policies. Are those policies 
continuing today? Do you expect that number to go up in the 
future?
    Mr. Oyunbilig. It is continuing and there is no sign of 
lessening. I think this is due to history. Also, according to 
some other parts of the world, this situation will still 
continue until that country 
becomes a democracy.
    So, I am kind of pessimistic because this is a relationship 
with two people, and democracy is somewhat different. They will 
start to respect the rights, but they will not give those 
rights to the 
minority people without fighting or striving for it.
    Mr. Mastel. But it sounds like the Han population in Inner 
Mongolia is now well-established. I mean, if China were to 
become a democracy tomorrow, that would still be a reality in 
your region. Is that correct?
    Mr. Oyunbilig. Yes. What I am saying, is the current 
situation will still continue even if China becomes a 
democratic nation. That is what I am afraid of.
    Mr. Mastel. I see. So if Inner Mongolia were autonomous, it 
would still be overwhelmingly a majority of Han Chinese.
    Mr. Oyunbilig. That is correct, yes.
    Mr. Mastel. All right.
    Mr. Adler, you talked a lot about the need for the U.S. 
Government to take a stand in favor of Falun Gong. Tell me a 
little bit more. How do you think that would help, and why do 
you think it would help?
     Some would argue that, in fact, China would simply ignore 
those stances. The Chinese tend to ignore those kinds of 
stances, and the rhetoric on the part of the United States 
would not have much impact. I do not agree, myself, but I am 
curious to hear your opinion.
    Mr. Adler. I do not agree that it would not help. I think 
this is a real grass-roots effort of people that are fighting 
to uphold freedoms in China, and the message gets through. 
Whatever support they get from outside is just a tremendous 
relief to them.
    It has been 3 years now for the persecution, and basically 
the President has not really spoken up on its behalf. So, we 
have only seen what happens when they do not speak up. I 
personally feel that if they did mention it and shine the light 
on it a little bit, it would only help.
    Mr. Foarde. Susan.
    Ms. Weld. Great. I had another for Mr. Oyunbilig. I wonder, 
do they have village elections there? Have you heard about 
whether the village elections law is being implemented in Inner 
Mongolia?
    Mr. Oyunbilig. I have not heard.
    Ms. Weld. The other thing is, in the foreign-invested 
enterprises in Mongolia--I assume that there are some--is there 
any sense that they would agree to hire a certain percentage of 
Mongolian people? It sounds as though you are saying, in the 
development of the natural gas reserves, they are only hiring 
Han men.
    Mr. Oyunbilig. That is correct. Actually, there are a 
number of international corporations--because Inner Mongolia is 
very rich in natural resources, a number of foreign corporation 
companies partnering with Chinese corporations to do it.
    They are not allowed to independently go into China, 100 
percent foreign-owned. We are not allowing that. Companies such 
as Exxon Mobil are doing this drilling. But I have not heard 
that there is such a policy like U.S. affirmative action. We 
never heard of such a policy.
    Ms. Weld. Thank you very much.
    This is a final question for Mr. Senser. I just read an 
interesting piece of yours about the toy factories. I wonder if 
you could give us a little summary of what your findings were 
in that respect.
    Mr. Senser. Actually, my article relies on other people's 
research. In spite of codes of conduct--at least in this area 
there are codes of conduct--they are consistently being 
ignored, with some exceptions. Remember, the codes have been 
around now for 10 or more years, and they have not shown the 
promise that they were originally held up for.
    Part of the article deals with the Chinese Government-run 
labor movements, the All-China Federation of Trade Unions 
[ACFTU]. The point is that the evidence from China itself is 
that this is an arm of the government, and that one of its main 
jobs, by law, is to ``support the People's democratic 
dictatorship.''
    So, the reason to make that point these days, is that in 
many parts of even the United States, but also in Europe, there 
is an effort to have a rapprochement with this organization for 
various reasons. It allegedly represents so many people.
    Some of the incentive is that, because China has a large 
workforce which is really an extended workforce for Europe and 
the United States, they say, well, somebody should speak up for 
those workers.
    Ms. Weld. Right.
    Mr. Senser. But the question is, by having an official 
contact with this arm of the Party, does it do any good for 
that purpose? The answer is, ``it does not.'' There is no 
evidence that it does. This is not to say that there are not 
good people within the ACFTU.
    There is evidence that some people in the ACFTU want to 
defend rights or want to get better legislation and so on. But 
then there are a lot of good people in the U.S. Labor 
Department but they are not the AFL-CIO, so there is a 
distinction to be made. It is not a question of who is good or 
bad, but who represents legitimate interests of the workers.
    Ms. Weld. And if progressive legislation on labor were to 
happen in China, can you think of which level of government it 
would come at? For example, there have been national laws, 
which seem to be approved but not enforced. I wonder if there 
are provincial laws or local laws which are being passed which 
might be useful.
    Mr. Senser. Legislation on labor affairs, as on other 
affairs, exists on many different levels, even though the 
signal comes from the central authorities. But there is room 
for improvement, not only of the laws, there is an effort by at 
least one international NGO to stimulate the government to 
enforce those laws.
    In fact, there is U.S. Government funding for that 
initiative. Whether it is going to be effective is another 
question. Just changing the law does not change anything, 
unless there is enforcement by the Chinese Government itself.
    Ms. Weld. Thank you very much.
    Mr. Foarde. Matt.
    Mr. Tuchow. Yes. I have a follow-up question for you, Mr. 
Senser. How do you feel that foreign businesses that are doing 
business in China should promote workers' rights?
    Mr. Senser. That is a very good question. It is one I have 
asked myself as a critic of some of what is going on in China. 
What would I do if I were in some role in business there? I do 
not see that happening. It could not happen for various 
reasons. But I think that one of the things I would be very 
concerned about is the health and safety of my people.
    See, part of the confusion is, American corporations hire 
people directly on their own payroll, but then they also have 
people working for contractors who make deals with local 
authorities, even 
police, and who use that factory with Taiwanese or Koreans as 
managers.
    So, I would want to be worried about the health and safety 
of those workers, too, to hear their views. That would be a 
very practical thing that I think should be done. There is some 
movement to do that by at least one large American corporation 
that I am 
familiar with.
    Mr. Tuchow. Mr. Oyunbilig, could you tell us your personal 
circumstances in seeking political asylum in the United States? 
Do you feel that you have suffered persecution in China on 
account of your political or other views?
    Mr. Oyunbilig. Yes. Because of my political views and my 
involvement with the Inner Mongolian underground movement, it 
put me in danger so I came to the United States. I still 
continue my work on Inner Mongolia's human rights and other 
issues we are concerned about.
    Mr. Tuchow. Did you suffer any persecution in China?
    Mr. Oyunbilig. Not physical persecution. I was not in jail 
or such kind of persecution, but I feel I am threatened.
    Mr. Tuchow. Is there a problem of child labor in Inner 
Mongolia?
    Mr. Oyunbilig. The problem with child labor is not a 
particular problem in Inner Mongolia, it is in the whole of 
China in general. There is a child labor problem.
    Mr. Tuchow. I understand there is a cultural affinity with 
Korea. Is there Korean investment in Inner Mongolia, and if so, 
how is that affecting, if at all, human rights in Inner 
Mongolia?
    Mr. Oyunbilig. There is not much Korean investment in Inner 
Mongolia. Most of them are going to the independent State of 
Mongolia, which is Outer Mongolia, because the investment 
conditions and policies there are much nicer than in Inner 
Mongolia.
    Mr. Tuchow. All right.
    Finally, for Huang Ciping. I had a question about the 2008 
Olympics Games. Practically, knowing what you know about the 
Chinese Government, what do you think the most effective 
techniques of leveraging the Olympic Games to promote human 
rights would be? What would be practical?
    Ms. Huang. Well, I still think a practical way is, in some 
ways, similar as the most favored nation status, that if you 
threaten to revoke their right, then they would behave better. 
That is a common practice. You should know, in dealing with the 
Chinese Government, if you are tough, then they will take some 
lessons.
    So I do think that is why we strongly advocate to have a 
committee in charge of monitoring human rights conditions in 
China similar to this Commission, that if you were to ever to 
say, well, we will revoke your trade privilege, then the 
Chinese Government will behave much better.
    Mr. Foarde. It is almost 4 o'clock and you have all been 
very generous with your time. So, I would like to bring this 
session to a close by making just a couple of comments.
    First, to pick up on a theme that Ms. Huang Ciping raised 
in her original presentation. Any time that the Commission has 
a hearing or a staff roundtable, or one of these open forums, 
if you cannot appear but would like to submit a written 
statement that becomes part of the record, we would always be 
delighted to have it and it would be part of the record.
    So occasionally we have to make some decisions about how 
many witnesses or panelists we might have at a given hearing. 
But if you have views on the subject of the hearing, we would 
be delighted to hear them or to have them for the record in a 
written statement. Normally we would like it within a few days 
of the event so we can get it into the printing process.
    In saying that, I hope that you would all stay involved 
with us and keep up on what we are doing, and when you do have 
views, we would like to hear them.
    Thank you all, this afternoon, for sharing your time with 
us and your thoughts. I particularly appreciate my friend and 
colleague, Greg Mastel, sitting in on behalf of Senator Baucus. 
On behalf of Senator Max Baucus, our chairman, and Congressman 
Doug 
Bereuter, our co-chairman, this brings this open forum to a 
close.
    We will see you all again next year. Have happy holidays. 
Thank you.
    [Whereupon, at 4:01 p.m. the open forum was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                    Prepared Statement of Alan Adler

                            december 9, 2002
                              introduction
    Thank you for giving me the opportunity to speak to you today. My 
name is Alan Adler, and I am the Executive Director of Friends of Falun 
Gong USA. Friends of Falun Gong USA is a nonprofit human rights 
organization established by concerned Americans who support the freedom 
of belief of people who practice Falun Gong.
    With the abolition of the annual review of China's most favored 
nation status and with China's accession to the WTO, we would expect 
this esteemed Commission to aggressively advocate for basic freedom of 
belief in China. Unfortunately, however, reading this Commission's 2002 
annual report, one gets another impression, at least in terms of the 
Falun Gong. Falun Gong was only mentioned in passing in various 
sections of the report, when it should have instead been a focal point. 
Why does Falun Gong deserve more attention and advocacy? The sheer 
numbers of people affected make the persecution of Falun Gong the No. 1 
religious freedom violation in China today, and perhaps the world. 
According to reports from major media and the Chinese Government's own 
statistics,\1\ prior to the ban, there were 70-100 million people 
practicing Falun Gong in China. That is a group larger than most 
nations. And when you consider that their family members, friends, and 
coworkers are also victimized--some are fined, some are jailed, and 
others are forced to turn in their loved ones--the numbers are 
absolutely staggering. The group of people affected 
becomes comparable to the population of the United States.
---------------------------------------------------------------------------
    \1\ Seth Faison, ``In Beijing: A Roar of Silent Protestors'' (The 
New York Times, April 27, 1999). Joseph Kahn, ``Notoriety Now for 
Movement's Leader'' (The New York Times, April 27, 1999). Renee Schoof, 
``Growing Group Poses a Dilemma for China'' (The Associated Press, 
April 26, 1999). Bay Fang, ``An Opiate of the Masses?'' (U.S. News & 
World Report, February 22, 1999).
---------------------------------------------------------------------------
    This brutal suppression has targeted everyone from schoolchildren 
who do the practice, to grandparents who rely on it to maintain their 
health, from military commanders, to doctors, to professors, and even 
judges. Some reports state that roughly half of all prisoners held in 
China's forced labor camps are Falun Gong adherents.\2\ Based on one 
estimate, this would put the number of Falun Gong in the camps at 2-3 
million.\3\ Chinese police and guards routinely brutalize Falun Gong 
prisoners, raping women, binding people in torture devices for weeks on 
end, stripping them and leaving them outside in below-freezing 
temperatures, holding them in cages too small for their bodies, and so 
on. In recent months, we have received reports of people being tortured 
to death almost daily. Chinese authorities have confiscated and 
shredded or burned millions of Falun Gong books, and there are even 
accounts of children in schools being forced to memorize poems 
denouncing Falun Gong, people being made to trample the photograph of 
the Falun Gong founder in order to enter train stations, and China's 
cutthroat college entrance exams now contain questions criticizing the 
practice. Officials have been given bonuses and promoted as a result of 
their efforts to persecute Falun Gong.\4\ This suppression has 
permeated every level and every facet of China's society.
---------------------------------------------------------------------------
    \2\ Australian Broadcasting Corporation, ``Calls for End to China's 
Falun Gong Re-Education Camps'' (July 4, 2001).
    \3\ The Laogai Research Foundation estimates that currently there 
are between 4 and 6 million prisoners held in China's forced labor 
camps (laogai). http://www.laogai.org/chinese/aboutus.html
    \4\ See, for example, Tamora Vidaillet, ``Shandong Boss Dark Horse 
for China Leadership'' (Reuters, November 5, 2002); Ian Johnson, 
``Death Trap: How One Chinese City Resorted to Atrocities to Control 
Falun Dafa'' (Wall Street Journal, December 26, 2000).
---------------------------------------------------------------------------
    It is well known that Falun Gong is currently No. 1 on the Chinese 
Government's hit list. When one considers the gravity of this 
situation, the amount of media 
attention Falun Gong has received, and the extensive support of local 
and state governments, it becomes clear that this Commission and the 
Federal Government more broadly need to do more. You have a 
responsibility to put Falun Gong at the forefront when it comes to 
human rights and rule of law issues in China.
                            recommendations
    I would like to make the following recommendations:

    <bullet> That the Commission make Falun Gong a focal point in its 
work and future reports. Falun Gong speakers should be invited to a 
greater number of events and hearings, and a section of next year's 
report should be dedicated to Falun Gong, if the situation remains as 
is or continues to worsen.
    <bullet> That the Commission advise our President to speak out. He 
has met with Chinese President Jiang Zemin three times this year but 
has yet to make a public statement in defense of the largest persecuted 
group in China. Some believe that quiet, behind-the-scenes diplomacy is 
most effective. I feel that behind-the-scenes diplomacy plays into the 
hands of China's closed, paranoid regime. The world must hear about 
this issue and know that others care. The words of the President are 
needed. His Congress has condemned this persecution and asked that he 
do so as well.\5\ We are still waiting.
---------------------------------------------------------------------------
    \5\ This is in reference to H. Con. Res. 217, H. Res. 188, and 
numerous Dear Colleague letters.
---------------------------------------------------------------------------
    <bullet> That the Commission recommend a Senate hearing on this 
topic. The House has held a number of hearings and has recently lent 
unanimous support in the form of House Resolution 188, yet the Senate 
has been curiously passive.

    I'd like to leave you with a few comments. From what I have seen, 
the Chinese Government does not admit that they have a human rights 
problem, much less that they need to change. It is extremely difficult 
to engage in fruitful dialog, to educate, or to reason with a 
government that flatly denies and routinely whitewashes the grave 
violations that are occurring. Bold, public, international pressure may 
be the only truly effective means of change.
    Additionally, one of this Commission's recommendations in its 
annual report was that corporations work to bring about change by 
giving recommendations to relevant Chinese Government entities.\6\ On a 
personal note, I have done business in China for over 30 years and have 
employed tens of thousands of people there. I have improved workers' 
rights to the best of my ability. However, I know that even one semi-
public statement, such as posting in a factory my company's human 
rights policy in Chinese, would bring that factory to the immediate 
attention of the Public Security Bureau and the repercussions would be 
disastrous. If I were held responsible for the posting, would I be 
allowed back into China? Would the translator of the document be 
spared? This is just a simple illustration of the pressure that 
corporations are under to comply with the repressive environment; one 
small move brings great risk. I feel that the idea of ``developing a 
long-term collaborative relationship between government and business'' 
is not a realistic approach. Corporations can do little to change the 
situation without strong support and advocacy on the part of our 
government.
---------------------------------------------------------------------------
    \6\ Congressional-Executive Commission on China, 2002 Annual 
Report, Page 7, bullet 3.
---------------------------------------------------------------------------
                                 ______
                                 

                   Prepared Statement of Christina Fu

                            december 9, 2002
        (This statement was last revised on February 6, 2003).

    Christina Fu I'm Christina Fu, wife of Yang Jianli. On April 26th 
this year, my husband was detained in Kunming, China during a peaceful 
visit to his native country. Today marks the 227th day of his detention 
and his whereabouts remain 
unknown.
    My husband is the president of the Foundation for China in the 21st 
century, through which he promotes the cause of democracy in China. As 
a veteran of 1989 Tiananmen student movement and an outspoken advocate 
for human rights in China, he testified before the Congress many times. 
On June 21 and July 7, 1989, after my husband fled China, he testified 
before the Congressional Human Rights Committee his eye witness of the 
Tiananmen Massacre, and testified in front of the United Nations on 
July 8, 1989. On April 5, 1991, my husband appeared in the Congress 
hearing testifying China's worsening human rights record. In December 
1996, he testified again on ``the Hearing of China's Human Rights.'' In 
May 1997, he testified before the Congress on the Chinese government's 
persecution of Christian in China.
    My husband is a permanent legal resident of the United States, but 
has remained a citizen of China. He came to the U.S. in 1986 as a 
student, and his passport expired in 1991. Since 1993, he tried many 
times to get a new passport from the Chinese consulate general in New 
York. I remembered traveling to New York with him a number of times to 
visit the Chinese consulate. As soon as the people inside the consulate 
heard my husband's name, they told us to go away. No one even wanted to 
talk to us.
    After my husband was detained in China, on May 8, 2002, I called 
the Chinese consulate in New York and spoke to Mr. Wang Hai-Tao, a 
consul in charge of the affairs for overseas Chinese, told me that ``if 
we do not give him (Yang Jianli) a passport, he should not go back to 
China.'' On June 14, when my husband's mother and two sisters visited 
the Chinese Embassy in Washington DC, the first secretary and consul 
Mr. Wang Yi-Gong told them that ``our government cannot give Yang 
Jianli a passport based on what he was doing in the United States. What 
he was doing here even you may not know.''
    It is commonly known that my husband is 1 of the 49 prominent 
dissidents who have been blacklisted by the Chinese government and 
denied entrance to China since 1989 (please refer to the attached 
report by Human Rights in China, January 6, 1995).\1\ According to the 
HRIC report, the Chinese government's ``re-entry Blacklist'' was issued 
confidentially by the Ministry of Public Security to all border control 
units in China in May 1994. My husband's name was listed in the third 
category with other 17 people. In this category, it says ``in 
accordance with relevant instructions from the Party Center: if subject 
attempts to enter China, to be dealt with according to circumstances of 
the situation.'' (That is, border authorities are to seek immediate 
instructions from above on how to handle the case, while presumably 
keeping their charges either in isolation or under close surveillance.) 
For this 
category, the duration of detention was not specified.
---------------------------------------------------------------------------
    \1\ This document is retained in Commission files.
---------------------------------------------------------------------------
    My husband's decision to travel to China this spring was the result 
of his growing concern about the under reported labor unrest and his 
strong belief that he has the right to go to his own country, that is 
guaranteed by international treaties. The ``International Covenant on 
Civil and Political Rights,'' signed by the Chinese government in 1998 
but has not ratified by the Congress of People's Representatives, 
states that ``no one shall be arbitrarily deprived of the right to 
enter his own country.'' (Article 12, item 4.)
    After my husband was detained and was being held in a hotel room 
guarded by Chinese police officers, he spoke with me by phone. We spoke 
again the next day on the morning of April 27. Since that day, I have 
been unable to communicate with him.
    In the past 7 months, our family has been deeply concerned for my 
husband's well-being and safety. We have done everything we could to 
obtain information about him, but our basic rights were denied. We 
submitted 8 written requests, made more than 20 calls to the Chinese 
Embassy in Washington DC and made 6 visits to the varies offices in 
China. I arrived in Beijing on May 23 and was not allowed to enter the 
country. I was sent to Canada on the same day.
    My husband's brother traveled to Beijing four times from his home 
in Shandong province to learn where my husband was being held and try 
to arrange for legal representation. No lawyers in China would accept 
his case since there was no official record of his arrest or trial 
date. Chinese authorities at the Public Security 
Ministry, the State Security Ministry, the Foreign Ministry, and the 
Beijing Public Security Bureau would not provide any confirmation.
    We have been in close contact with the US State Department, which 
has been very supportive. Despite their active involvement in the case, 
they have also been unable to obtain even the most basic information, 
such as where my husband is being held and how he is being treated. 
Since July, the State Department has more than once requested a written 
notification from the Chinese government, but 
nothing has happened.
    Chinese law requires notification of detention within 24 hours; 
Chinese law 
imposes a 37-day limit on detentions without a warrant; Chinese law 
requires that the detainee be permitted rapid access to legal counsel. 
China has not honored its own laws with respect to my husband's case. 
He has not been permitted to communicate with anyone since his 
detention 7 months ago. Such an extended period of isolation from the 
outside world surely constitutes inhuman, cruel and degrading treatment 
Just today, my attorney Jared Genser of Freedom Now, filed a petition 
to the United Nation High Commission on Human Rights, Working Group on 
Arbitrary Detention describing the violations of Chinese and 
International law in my husband's case. The petition will be attached 
with my statement.
    I remain hopeful and appreciative of the many people working on my 
husband's behalf. I would particularly thank the more than 40 Members 
of Congress from Senate and House, Republicans and Democrats, who have 
written a total of 21 letters to both the Chinese and U.S. governments 
to appeal for my husband's release.
    Supportive letters were also written by Archbishop Desmond Tutu, 
President Lawrence Summers of Harvard University, 34 faculties of 
Harvard Kennedy School of Government, Chancellor Robert Berdahl of 
University of California at Berkeley and many others. Their efforts 
have given me much courage and hope during this very difficult 
struggle. Their help will have a direct impact on my husband's fate.
    I greatly appreciate the opportunity to inform the Congressional-
Executive Commission on China of my husband's case and to appeal for 
help. It is also my hope that this commission will continue to show 
concern about my husband's case and take advantage of the upcoming 
human rights dialog with China to press for my husband's release so 
that joy and peace will return to my children and my family.
    Thank you all very much!
                                 ______
                                 

                 Prepared Statement of Robert A. Senser

                            december 9, 2002

                     How To Assess China's Progress

    More than 12 years ago I attended a conference on democracy 
sponsored by the National Endowment for Democracy and hosted in the 
House Foreign Affairs Committee room, just down the road from here. It 
was an exciting time. Among other historic events, Solidarity had been 
legalized in Poland just a few weeks earlier, and so it was natural 
that the lead-off speaker was someone from Poland--Jacek Kuron, a 
leading advisor to the Solidarity movement. As the conference program 
pointed out, Kuron was the person ``most responsible for developing the 
strategy of building civil society'' in Poland.
    I was greatly impressed with the conceptual framework of Kuron's 
remarks--his outline of the essential characteristics of 
totalitarianism. Drawing on his own personal experience in the struggle 
against a repressive regime, Kuron identified ``a monopoly of 
organization'' as the key element of totalitarianism. This monopoly, he 
said, ``is so total that if its citizens gather freely and discuss 
freely a matter as simple as roof repairs on a block of flats [or 
condominium apartments], this constitutes a challenge to the central 
authority.'' The second most important characteristic of a totalitarian 
state, Kuron said, ``is a monopoly on information, meaning that every 
printed word--not to mention the electronic media--is centrally steered 
by central authority.'' As a practical matter, he quickly added, this 
model is an ideal that 
cannot be implemented in all its fullness.
    Kuron's model of totalitarianism is a useful tool for making a 
serious assessment of any country at any time, and it is especially 
useful for making judgments about one particular country, the People's 
Republic of China, at this particular time. A powerful country daily 
becoming ever more powerful, China is in the midst of 
historic change, dramatized by a double transition, first, to a new 
generation of leaders at the top of the country's Party/state command 
structure, and second, to a new global role in the international 
political economy as a leading member of the World Trade Organization.
    Chairman Mao went a long way toward imposing the totalitarian ideal 
on China, and caused unbelievable horrors before his successors changed 
course. Unfortunately, although well short of the Mao era extremes, the 
essential characteristics of totalitarianism survive in modern China. 
The regime still tenaciously holds on its monopolies of organization 
and of information--even as it ``opens up'' in significant ways. But, 
as a practical matter, Beijing has made selective exceptions to its 
implementation of the totalitarian model. Let me briefly describe one 
that fascinates me.
    Consider the thriving existence of an organization called the 
American Chamber of Commerce in China [AmCham-China]. It is 
headquartered in Beijing, but its influence reaches beyond the capital 
city. Its membership comprises more than 1,550 persons representing 
more than 750 companies, small and large, with operations throughout 
China. It is a ``forum'' for exchanging information inside and outside 
its own ranks, even with China Government officials at various levels. 
That information covers a lot of ground. Its annual White Paper, a 
comprehensive survey (in English and Chinese) of the ``climate'' for 
American business in China, provides exhaustive details on both the 
positive and the negative features of that climate. Its analysis of 
labor conditions, for example, praises ``positive developments . . . 
benefiting both international and domestic business,'' but also 
contains many complaints, such as that ``labor costs in China remain 
higher than those of many Asian countries, and are rising steadily . . 
. [without a] corresponding improvement in the competitiveness of the 
Chinese labor market.'' The full text of the White Paper is available 
on the Web. Among the Chamber's other activities are these:

    <bullet> Publishing a business magazine, AmCham China Brief, 10 
times a year. It reaches a readership estimated at 5,000, including not 
only 1,500 business executives, but also Chinese and U.S. Government 
officials, foreign diplomats, and directors of other chambers of 
commerce in the Asia-Pacific region.
    <bullet> Monitoring and publicizing China's compliance with its 
World Trade Organization (WTO) accession agreements. Its WTO 
Implementation Report, released this fall, praises China's ``serious 
commitment to meeting its WTO obligation,'' and also expresses ``many 
specific concerns . . . [about] some areas where China may not yet be 
in full compliance with WTO commitments.'' The Chamber will continue 
this monitoring, and is planning to issue an annual public report for 
the rest of China's 5-year WTO implementation period. There you have 
some details (culled from http://www.amcham-china.org) on an enclave of 
non-totalitarianism in China. In fact, that enclave offers a non-
totalitarian model of how freedom of organization and freedom of 
information can be exercised in China, if permitted by the government. 
It also outlines the kinds of openness that China must attain to free 
itself fully from the shackles of totalitarianism.

    In singling out AmCham-China, I am of course not objecting to the 
fact that American business people, like the business people of many 
other foreign countries, have successfully organized themselves and are 
actively pursuing their interests in a collective fashion, even to the 
point of lobbying the Government of China. It's just that their 
freedoms so glaringly contrast with how thoroughly, often brutally, 
China denies these same freedoms to its own citizens, including its 
working men and women in factories, farms, and offices. This policy has 
a historical antecedent, nowadays in universal disrepute, called 
colonialism, a system whose central failing was to grant foreigners 
greater rights than a country's own people. It eventually inspired 
revolutions. Will the neo-colonialism of the 21st century do likewise?
    In an article he published in Hong Kong in 1994, just before he was 
again jailed, China's famed human rights advocate, Wei Jingsheng, 
protested against the discriminatory policy of granting foreigners 
various rights, privileges, and preferences denied to China's own 
people. ``The citizens of this country will not put up with such unfair 
treatment for long,'' he warned. ``We know from history that at times 
of great social change, unfair phenomena can easily change to the 
opposite extreme. That is, while it is the Chinese citizens who are 
treated unfairly; in the future it may be the foreigner.''
    China has experienced no such unfairness to foreigners. But 
remember, it took time before colonialism to become recognized as 
grossly unfair and to be rejected as intolerable. And 21st century 
communications and technology can speed up history.
                                 ______
                                 

                    Prepared Statement of Oyunbilig

                            december 9, 2002
    Members of the Commission, Ladies and Gentlemen,
    First of all, I thank the Commission for giving me this opportunity 
to speak on the human rights situation in Inner Mongolia. My name is 
Oyunbilig. I came to the United States from Inner Mongolia in 1995 and 
now I'm staying in the United States as a political asylee.
    Due to the limited time, I'll be straight to the point. However, I 
do need to point out that the southern part of the Mongol land and its 
people had always been a part of the Mongol Nation that came to exist 
in 13th century and that's where the name Inner Mongolia came to be. In 
1947, the Chinese Government setup the ``Inner Mongolian Autonomous 
Region'' against the will of the Mongol people. Since then, individual 
human rights have been deprived from the Mongols in Inner Mongolia, 
along with their political and civil rights as a people. For more than 
half a century, the Mongols in Inner Mongolia have witnessed some most 
horrifying events in our people's history: mass killings of innocent 
civilians; total destruction of the religious establishments; 
calculated and forced cultural assimilation that brought the Mongol 
culture and tradition to the brink of extinction; and catastrophic 
destruction of the grassland, just to name a few.
    Now, I'll provide two cases as testimonies to what we are very 
concerned about.
    The first one is the case of Mr. Hada and Mr. Tegexi. In 1992, Mr. 
Hada, Mr. Tegexi, and other Mongol students and intellectuals 
established the Southern Mongolian Democracy Alliance (SMDA). The goal 
of the SMDA was to promote and preserve Mongolian language, history and 
culture in Inner Mongolia and to strive for the civil and political 
rights for the Mongols.
    In December 1995, Mr. Hada, Mr. Tegexi, and over 70 members and 
supporters of the SMDA were arrested after they organized peaceful 
demonstrations and student strikes at universities against the Chinese 
Government's oppressive policies toward the Mongols in Inner Mongolia. 
On December 6, 1996, Mr. Hada was charged with crimes of inciting 
separatism and was sentenced to 15 years in jail. Mr. Tegexi was 
accused of similar crimes and was sentenced to 10 years in jail. Today, 
Mr. Tegexi's whereabouts are not known.
    According to Hada's wife, Ms. Xinna, Hada has been tortured by the 
prison guards constantly and suffers from a number of physical 
illnesses. Ms. Xinna was also arrested several times for giving 
interviews to foreign media, including Voice of America and Radio Free 
Asia. The bookstore they owned was shutdown and that left Ms. Xinna and 
their son Uiles with no reliable sources of living. In 2001, Hada's 16-
year old son Uiles was expelled from school without sufficient 
explanations from the school. Later in December 2001, he was arrested 
for alleged robbery and sentenced to 2 years in jail, again, without 
proper trial. According to Ms. Xinna, prison guards also beat Uiles 
several times.
    The second case concerns the Chinese Government's on-going effort 
to evict and re-locate Mongol herders by force.
    In recent years, sand storms originating from the north have become 
a big problem for China as they grow in calamity and frequency. Beijing 
is one of the major cities hit by the sand storm, because of its close 
proximity to Inner Mongolia. Government officials in Beijing had long 
ignored the problem until they were exposed to the threat of sand 
storms. However, they put the blame on the Mongol herders and their 
animals, instead of on their own policies toward Inner Mongolia. Since 
the early 1950s, the Chinese Government moved millions of Han Chinese 
into Inner Mongolia as an attempt to make the occupation of Inner 
Mongolia a fait accompli. Most of these Han Chinese are peasants and 
their only means of life is to cultivate the land. Unsuited for 
agricultural cultivation that strips the land of its topsoil, the Inner 
Mongolia steppe would turn into patches of desert after only a few 
years of farming, the consequence of which is threatening China's 
capital now.
    The Chinese Government started a program to forcefully relocate 
Mongol herders 2 years ago under the pretext that the main reason for 
the sand storms is overgrazing. According to the Xinhua News Agency, 
the program will resettle about 650,000 people in 6 years and most of 
them are Mongol herders. One of the nine prefectures of Inner Mongolia 
already declared a total ban on livestock herding. We have many reports 
from Inner Mongolia indicating that Mongol herders were asked to sell 
off their livestock and were forced out from their pastures into 
unfamiliar territory and unknown lifestyle, without any support from 
the government.
    Members of Commission, Mr. Hada and Mr. Tegexi are two of the few 
political prisoners who are serving 10 or more years of prison terms in 
China. I would like to ask the Commission and the U.S. Congress to 
bring up their cases during the future contact with Chinese officials; 
I also ask you to urge the Chinese Government to stop the relocation 
program that is aimed at the Mongol herders, and provide adequate 
support and subsidy for those who already have been displaced.
    Thank you very much.
                                 ______
                                 

                    Prepared Statement of Joan Mower

                            december 9, 2002

           China's Jamming of U.S. International Broadcasting

    The Broadcasting Board of Governors (BBG) is the independent 
Federal agency that oversees all U.S. nonmilitary international 
broadcasting, including the Voice of America (VOA) and Radio Free Asia 
(RFA).
    Our mission, quite simply, is to ``promote and sustain freedom and 
democracy by broadcasting accurate and objective news and information 
about the United States and the world.'' In China, however, we face a 
serious problem in fulfilling that mandate because Beijing is working 
hard to prevent the news we report from getting through to the Chinese 
people.
    Even as China is actively trying to expand its role in the global 
marketplace, it is isolating its people, cutting off the free flow of 
information and denying citizens reliable and credible news from the 
United States, among other places.
    The BBG, which monitors jamming with the assistance of the Federal 
Communications Commission, knows that virtually all of VOA's and RFA's 
shortwave radio transmissions directed to China in that country's 
languages are jammed. VOA broadcasts in Cantonese, Mandarin and 
Tibetan. RFA broadcasts in Cantonese, Mandarin, Tibetan and Uyghur.
    Unfortunately, jamming seems to be on the rise, despite increased 
commercial and diplomatic contacts between the United States and China. 
In Lhasa, Tibet's capital city, for example, it is impossible to 
receive a good signal for VOA Tibetan, even though the service is on 
three or five frequencies, depending on the time of day.
    As has been widely reported, the Chinese Government also is 
determined to censor the fast-growing internet by blocking sites, 
including those of VOA www.voanews.com and RFA www.rfa.org. Researchers 
at Harvard Law School recently concluded China has the world's most 
censored internet, with the government blocking up to 19,000 websites. 
Additionally, email subscription services are blocked. The BBG--along 
with, we hope, all Americans--is concerned about the Chinese 
Government's actions for a number of reasons.
    First, it's a human rights issue: Everyone is entitled to factual, 
uncensored 
information.
    Second, the Chinese people know woefully little about the United 
States--and that's not good. Surveys show a disturbing 68 percent of 
urban dwellers in China consider the United States their country's No. 
1 enemy. By controlling outside media, the Chinese Government has 
manipulated the news and stopped the United States from telling its 
side of the story. As a result, some 1.2 billion people are 
ill-informed about our people, our culture, our democracy, our freedoms 
and our 
government policies.
    Not only are the Chinese Government's actions wrong--they're 
unfair. While China jams VOA and RFA, the United States allows China's 
Government television, CCTV, on many cable systems across the country. 
China Radio International, China's Government radio, broadcasts 
unjammed on shortwave and on a number of affiliated AM and FM radio 
stations in the United States. Of course, as a country that supports a 
free exchange of views and ideas, we wouldn't have it any other way.
    At the same time, the U.S. Government has granted more than 40 
journalists from China's state-run media permission to live and work in 
the United States without restriction. The same cannot be said about 
China where American journalists work under more stringent 
restrictions. Moreover, the Chinese have refused to 
increase from two the number of correspondents working for U.S. 
international broadcasting in China.
    So what can be done? At a minimum, the issue needs to be brought to 
the forefront of the public agenda. Top administration officials 
already have promised to raise the issue with the Chinese through 
diplomatic channels and other discussions so we're hopeful that there 
might be some movement on that front.
    The BBG also has filed complaints of ``harmful interference'' with 
the International Telecommunications Union monthly since August 2000, 
claiming Chinese jamming violates radio regulations. China first 
acknowledged receipt of the complaints in July 2002, and again in 
August 2002. Failure to acknowledge complaints is itself a violation of 
radio regulations. China insists, implausibly, that what we hear as 
jamming is merely an accidental overlap of broadcasts on the country's 
highly congested airwaves. The BBG believes these responses are 
duplicitous at best. Chinese officials have not responded positively to 
a U.S. request to discuss frequency management.
    To overcome jamming, the BBG generally broadcasts on different 
frequencies to reach a broad geographic region. U.S. international 
broadcasting spends about $9.5 million annually to transmit about 
100,000 hours of RFA and VOA programming to China. Costs could be 
slashed about 25 percent if China ceased jamming. China spends a 
comparable amount to counter U.S. transmissions.
    Finally, both VOA and RFA continue to research and experiment with 
proxy servers and mirror internet sites to circumvent the bamboo 
curtain.
    But the bottom line is this: the United States, now engaged in a 
global war on terrorism, cannot afford to have 18 percent of the 
world's population misinformed about our country. We need a concerted 
strategy involving Congress and the Executive branch to grapple with 
this problem--and to stop the jamming.

                       Submissions for the Record

                              ----------                              


               Prepared Statement of Kery Wilkie Nunez\1\

                            december 9, 2002

   Slander and Persecution of Falun Gong in China and in the United 
                   States: Losing the Right to Appeal

    Under China's constitution, there is an appeals process. Yet Falun 
Gong practitioners who appealed peacefully by quietly meditating or 
displaying a banner were detained, beaten and even sentenced to long 
prison terms. Some were tortured and killed despite the fact that every 
single appeal Falun Gong practitioners made was peaceful and legal.
---------------------------------------------------------------------------
    \1\ Mrs. Nunez is a Falun Gong practitioner and a legislative 
director for a national Hispanic organization. She may be contacted via 
email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b706c727770727e2a5b7a74773578747635">[email&#160;protected]</a>
---------------------------------------------------------------------------
    Practitioners outside of China took their appeals to the free 
world. While they received significant support from the international 
community, the Chinese Government has made it more difficult to appeal, 
even in the free world. To achieve this, they used slander, the 
creation of a blacklist, threats to family members of practitioners, 
intimidation of local officials who support Falun Gong, and harassment 
of practitioners abroad.\2\
---------------------------------------------------------------------------
    \2\ For background information and media reports on the PRC's 
harassment of practitioners in America visit http://www.faluninfo.net/
specialreports/freedomunderattack.
---------------------------------------------------------------------------
    While every single demonstration that Falun Gong does is peaceful 
and practitioners follow principles of ``truthfulness-compassion-
tolerance,'' Chinese authorities use slander to convince foreign 
governments that these innocent people may pose a threat. For example, 
in an effort to ruin the reputation of Falun Gong, the 
Chinese Government staged a self-immolation incident on Tiananmen 
Square in January of 2001. While none of the participants in the self-
immolation were 
practitioners, the Chinese Government used the self-immolation incident 
as the centerpiece of its campaign to discredit Falun Gong.\3\ The 
International Education Development Bureau reported to the United 
Nations in August of 2001 evidence that the Chinese Government staged 
the self-immolation.\4\ Nevertheless, fabricated lies of this nature 
are used by the state-controlled media in China and are also shown by 
Chinese channels in foreign countries, including the United States.
---------------------------------------------------------------------------
    \3\ Torture is Breaking Falun Gong: China Systematically 
Eradicating Group. Washington Post, August 5, 2001.
    \4\ International Education Development Bureau Statement before the 
United Nations Sub-Commission on the Promotion and Protection of Human 
Rights, Fifty-third session, Agenda item 6, August 2001. The regime 
points to a supposed self-immolation incident in Tiananmen Square on 
January 23, 2001 as ``proof'' that Falun Gong is an ``evil cult'' 
However, an analysis of the PRC's Government's newscast footage of the 
incident shows that the event was staged by the government.
---------------------------------------------------------------------------
    There is also pressure on overseas practitioners not to appeal on 
behalf of Falun Gong. When practitioners in the United States tell 
people the facts about the persecution, their families in China are 
threatened. In America, practitioners' apartments have been broken 
into,\5\ people have been beaten up, a car filled with Falun Gong 
literature was firebombed, and phones are wire tapped. Even U.S. 
officials are pressured by the Chinese Government to rescind 
proclamations given to Falun Gong.\6\ On February 21, 2002, the Wall 
Street Journal reported ``The Chinese Government, not content to 
persecute the Falun Gong in China, has [urged] local U.S. officials to 
shun or even persecute them right here in America. The approach . . . 
tends to combine gross disinformation with scare tactics and, in some 
cases, slyly implied diplomatic and commercial pressure.''
---------------------------------------------------------------------------
    \5\ Beijing's Long Arms: How China is Suppressing Falun Gong in 
America, http://www.washingtonmonthly.com, December 2002.
    \6\ Will Chinese Repression Play in Peoria. The Wall Street 
Journal, Thursday, February 21, 2002.
---------------------------------------------------------------------------
    In another effort to silence Falun Gong practitioners, the Chinese 
Government pressures foreign countries to deny them entry. For example, 
many practitioners, including U.S. citizens, were denied entry into 
Iceland during Jiang Zemin's visit. Once the general public learned of 
this affront to civil liberties, 3,000 Icelandic citizens demonstrated 
on behalf of Falun Gong and wrote apologies in their major newspapers. 
Unfortunately, citizens in other countries may not even know when their 
government cooperates with the communist regime. Last April, German 
media reported that Falun Gong practitioners were abruptly forced to 
clear their hotel rooms. The Chinese Government's pressure is not 
limited to pressure on governments alone. For example, when Jiang Zemin 
visited the United States in October, Falun Gong practitioners lost 
their reservation of a ballroom at a hotel in Houston. Practitioners 
were planning a conference 1 day prior to the arrival of Jiang. The 
ballroom was canceled 45 minutes before their conference was to begin 
despite the fact that the practitioner making the arrangement had a 
signed contract in hand, which had been paid in full 2 weeks prior to 
the event.
    Practitioners and supporters in America hope that the United States 
will take the lead in ensuring that the peaceful Falun Gong 
practitioners, who are unjustly persecuted by the Chinese Government, 
have the opportunity to appeal in the free world.
    I recommend that the Congressional-Executive Commission on China do 
the 
following: Urge the U.S. Government to investigate and take legal 
action against illegal activities by Chinese diplomats concerning 
harassment of U.S. citizens and residents who practice Falun Gong; urge 
the U.S. Senate to hold a hearing on House Resolution 188 once it is 
reintroduced in the 108th Congress; and make Falun Gong the focal point 
of the Commission's work and future reports.
    Thank you for accepting my written statement for the record.
                                 ______
                                 

Prepared Statement of Enhebatu Togochog, President, Southern Mongolian 
                    Human Rights Information Center

                            december 9, 2002
    Ladies and Gentlemen,
    As you know, the mission of Radio Free Asia (RFA) is to bring 
uncensored and non-partisan news and information to Asian populations 
which might otherwise be denied such access by their governments. This 
is the essential criterion for the choice of RFA's broadcasts. There is 
also the implication that RFA as a U.S. Government sponsored 
organization secondarily seeks to encourage democratic values. One 
important virtue of RFA is that it beams its broadcasts in the native 
languages of the Asian populations it seeks to service. In the new 
millennium, information and news is a more critical part of the social 
and political functioning of nations and governments than ever before. 
When information and news becomes a political tool and falls under the 
control of a single agenda, the essential quality of this important 
function becomes distorted and in direct opposition to democratic 
values. RFA plays an important role in counteracting such distortions. 
Given this backdrop, it will be argued that RFA broadcasts in the 
Mongolian language are completely in line with the RFA mission and 
there is a vital need for such broadcasts. We begin by 
providing a brief picture of the extent to which disinformation is 
being used at the detriment of the Mongolian populations of China.
    Chinese Government interference and censoring with the free flow of 
news and events has been well documented. In Inner Mongolia, all kinds 
of media such as TV, radio broadcasting, newspapers, Internet, and 
publications, especially those in Mongolian language, are strictly 
controlled by the Chinese Government. No independent agency exists 
dealing with news, press and publication nor is there any provision 
allowing for open dissent of government decisions or policies. Those 
who try to express their opposing political, ethnic, religious, 
cultural or historical opinions and ideas are subject to arrest and 
jail. According to incomplete figures of the Southern Mongolian Human 
Rights Information Center (SMHRIC), since 1990, at least a hundred 
different titles of books, magazines and other publications, 20 movies 
and videos have been banned; more than 70 Internet sites have been 
blocked; at least 40 bookstores, Internet cafes and reading clubs have 
been shut down; thousands of books, video tapes, CDs and tape 
recordings of Mongolian songs thought to be against national policies 
in one form or another have been confiscated from individuals and 
retail stores without any compensation. At least 100 Mongolian authors, 
writers, correspondents, editors and translators and other dissidents 
have been detained, arrested and sent to jail for alleged acts of 
government opposition (about the most prominent cases, please see the 
annex). The official government policy of sinicization of the Mongolian 
populations and regions causes them to see expressions of Mongol 
cultural identity as a threat and establishes the basis for official 
distortion and disinformation about these repressive actions.
    The Chinese Government not only strictly controls all information 
sources but also regularly misinforms the Mongols about Western 
countries, especially the United States policies, society and culture. 
School textbooks emphasize that the U.S. is an ``imperialist country, 
like a `paper tiger', doesn't have any real power.'' School authorities 
stress that the only purpose of the United States foreign policy is 
``to split our great mother country by using `sugar-coated bullet' or 
`peaceful revolution.' '' American democracy is said to be a ``fake 
democracy whose beneficiaries are just a few rich people.'' In 
colleges, students are forced to attend the so-called ``political 
study'' classes on every Thursday afternoon. Absences are not allowed. 
The main purpose of the ``political study'' is to indoctrinate the 
Mongolian intellectuals into believing that the best political system 
in the world is ``the Chinese style socialist system.'' They also 
describe American society as ``a monster's hole which is the darkest 
part of the world where people eat people.'' Propaganda Committees at 
various levels give speeches or show movies, videos and slides stating 
that the U.S. is a society where violence and crime are spread 
everywhere and people have no social or moral values, therefore, 
people's lives and property are not safe and everybody faces the threat 
of robbery and murder at anytime. They also say that in America, 
relationships between people are based on money and people don't have 
any family connections, where everybody has at least one extramarital 
sexual partner. These and other distortions are intended to encourage a 
hostile attitude toward western countries, particularly the United 
States. For example, shortly after the 9/11 disaster, China's largest 
official news agency, Xin Hua News, stated that in the Inner Mongolian 
Autonomous Region, especially the capital Huhhot City, Osama Bin 
Laden's pictures and toys with his name became the best selling goods 
in many stores. This is a reflection of the relative success of the 
government disinformation campaign.
    Official news about the Mongolians themselves is also similarly 
distorted in order to push the interests of the government. All kinds 
of publications and the media have taught people that Chinggis Khan is 
Chinese and that the Mongols are a part of the great Han Chinese (Zhong 
Hua Min Zu) Nation. They stress that not only Inner Mongolia but also 
the independent country of Mongolia was a part of the great mother 
Nation of China. Many publications insist that Mongolia should return 
to its ``mother country of China'' and some even go so far as to say 
that now it is time to take Mongolia back because most of the 
Mongolians are willing to ``return to the embrace of their homeland 
China.'' Similarly, news about native Mongols in opposition to official 
Chinese policies is suppressed. The government uses misinformation to 
push their political, economic and cultural agenda with little regard 
to historical truth or objectivity.
    China has been condemned by human rights organizations and the 
international community in general for violations of civil and human 
rights. There is extensive documentation on their harsh suppression of 
non-Han Chinese cultural and ethnic expressions on the part of 
individuals and groups. But international attention has not been paid 
to their policies of disinformation and distortion of world and 
national events to the same degree, yet we would argue that these are 
as reprehensible as their human rights record. The substantial Mongol 
population in China of 5 million people are victims of this information 
distortion. The only way in which the total control of the media can be 
neutralized is through independent reporting and access to broadcasts 
such as RFA's. We request that the Mongol populations of China be given 
access to RFA broadcasts in the Mongolian language. They too, like the 
Tibetans, Uyghurs and the Chinese should have the privilege of hearing 
clear and objective reporting that only the RFA can provide.
    Thank you.
                                 annex
    The followings are the most prominent cases about free press, free 
speech, and free assembly in Inner Mongolia:

    <bullet> Banned books:

    1. Way Out of Southern Mongolia--A Mongolian book by Mr. Hada, 
president of the Southern Mongolian Democratic Alliance, who was 
arrested in 1995 and 
sentenced to 15 years jail. This book has been banned since 1995;
    2. Kang Sheng and the False Case of Inner Mongolian People's 
Revolutionary Party--A Mongolian book, published in 1995, revealing the 
truth of the 10 years-long genocide against ethnic Mongolians during 
the Cultural Revolution, by Mr. Tumen, an ethnic Mongolian high ranking 
official who has been accused and put under house arrest after 
publishing the book. This book has been banned since 1996;
    3. Do Not Forget, Extinguished If Forget!--A Mongolian book by B. 
Baabar, an Outer Mongolian author, promoting and protecting the 
traditional Mongolian culture and identity. This book has been banned 
since 1992;
    4. Ethnic Problems in Inner Mongolia--A Mongolian book by Mr. 
Muunohai, an ethnic Mongolian prominent dissident who had served 8 
years jail, using Marxism to analyze the Chinese authorities ethnic 
policy in Inner Mongolia. This book has been banned since 1995;
    5. Prisoners Outside the Prison--A Mongolian book by Mr. Unag, 
publishing some ethnic Mongolian dissidents' articles, has been banned 
since 1998;
    6. I Have Nothing Wrong, Never!--A Mongolian poetry anthology by 
Mr. Chingdalai, expressing his strong desire to basic human rights and 
fundamental freedom, has been banned since 1999;
    7. I Am From Harahorin--A Mongolian poetry anthology by Mr. 
Ulziitogtoh, describing his dream of freedom, has been banned since 
2001;
    8. The Truth of the Cultural Revolution's ``Unearthing the Inner 
Mongolian Revolutionary Party Members'' and ``Cracking Down Traitor 
groups'' Movements in Inner Mongolia--A book by Mr. Bayantai, revealing 
the truth of the Chinese Communist Party's massacre against ethnic 
Mongolian population in Inner Mongolia during the Cultural Revolution, 
has been banned since July 2002;

    <bullet> Banned books:

    1. Voice of Southern Mongolia--A Mongolian language magazine by the 
Southern Mongolian Democratic Alliance, publishing dissident's articles 
and human rights documents, has been banned since 1995;
    2. History of The Great Mongolia--A Mongolian language magazine 
edited by the Mongolian scholars, publishing Mongolian history, has 
been banned since 1997;
    3. The Freedom-Seeking People--A Mongolian language magazine by 
college 
students in Huhhot City, publishing ethnic Mongolian student's articles 
regarding freedom, has been banned since 1992;

    <bullet> Banned movies and videos:

    1. The Great Mongol--A documentary film made in Japan and 
translated into Chinese in Taiwan, showing the different version of 
Mongolian history, has been banned since 1992;
    2. Tsokht Taij--A Mongolian movie made in Mongolia, describing the 
Mongolian hero Tsokht Taij who tried to unify Inner and Outer Mongolia 
centuries ago, has been banned since 1990s;
    3. Queen Manduhai Tsetsen--A Mongolian movie made in Mongolia, 
telling the story of Queen Manduhai Tsetsen who tried to unify all of 
Mongolian tribes centuries ago, has been banned since 1993;
    4. A Beautiful White Yurt--A Mongolian movie made by Inner 
Mongolian Film Making Corporation, has been banned since 1996 because 
one of the scenes in the film ``over emotionally describes the 
relationship between Inner Mongolians and Outer Mongolians;''

    <bullet> Blocked Internet sites and e-news:

    1. www.innermongolia.org--website of the Inner Mongolian People's 
Party, the largest exiled organization established by Inner Mongolian 
political refugees in the United States. This site has been blocked 
since 1997;
    2. Southern Mongolian Watch--an e-mail based magazine edited by the 
Southern Mongolian Human Rights Information Center (SMHRIC) publishing 
Inner Mongolian human rights situation and general human rights issues, 
has been blocked by the Chinese Internet police since 2001;
    3. http://www.caccp.org--website of the Florida based Citizens 
Against Communist Chinese Propaganda (CACCP), has been blocked since 
1998;
    4. http://www.taklamakan.org/mutti-l--a website regarding Southern 
Mongolian, Tibetans, Eastern Turkestan and Taiwan's issues, has been 
blocked since 2001;
    5. http://southernmongolia.hypermart.net/forum/mainpage.pl--An 
Internet forum called ``Southern Mongolian Forum'' (later changed to 
``Inner Mongolian Cultural Saloon'') created by the Inner Mongolians 
abroad, has been blocked since 2001;
    6. www.voa.gov and www.rfa.org--websites of Voice of America and 
Radio Free Asia have been blocked since they were created;
    7. www.smhric.org--website of the Southern Mongolian Human Rights 
Information Center (SMHRIC), blocked since October 2002;
    8. www.mongolculture.com--an Internet forum created by Inner 
Mongolian intellectuals in Inner Mongolia, discussing Mongolian 
cultural issues, has been blocked before the Chinese Communist Party's 
16th National Congress in November 2002;

    <bullet> Bookstores, reading clubs, and Internet cafes shut down:

    1. Mongolian Study Bookstore--a bookstore owned by Mr. Hada, 
president of the Southern Mongolian Democratic Alliance (SMDA), and his 
wife Mrs. Xinna, has been shut down and demolished by the authorities 
after the SMDA was cracked down in 1995;
    2. Mongolian Students Reading Club--a free academic association 
established by ethnic Mongolian students in Huhhot City, has been 
cracked down and announced as ``an illegal organization'' since 2001;
    3. Blue City Internet Cafe--an Internet cafe providing ethnic 
Mongolians with low price Internet access, has been shut down and 
announced as illegal business since 2001;

    <bullet> Books, video tapes, computers and copy machines 
confiscated:

    1. Mongolian Study Bookstore's all books valued at 200,000 Yuan 
(approximately 23,000 U.S. dollars) were confiscated by the authorities 
without any compensation after the crack down of the SMDA in 1995;
    2. Mongolian Students Reading Club's more than 500 books and other 
facilities such as copy machine and computers have been confiscated 
after its crack down in 2001;
    3. Blue City Internet Cafe's 47 computers, 2 copy machines and 
other facilities were confiscated by the authorities in 2001;
    4. According to the ethnic Mongolian victims, thousands of video 
tapes of ``The Great Mongolia,'' ``Manduhai Tsesten,'' and ``The Great 
Mongol'' have been taken back from the buyers and retail stores without 
any compensation;
    5. According to many ethnic Mongolian readers, thousands of 
Mongolian books such as ``Kang Sheng and the False Case of the Inner 
Mongolian People's Revolutionary Party,'' ``Prisoners Outside the 
Prison,'' ``I Have Nothing Wrong, Never!'' have been taken back from 
the buyers and bookstores without any compensation;
    6. According to the November 7, 2002 report of the Chinese official 
news, Xinhua News, in order to welcome China's 16th National People's 
Congress, Inner Mongolian authorities have conducted a 10-month long 
so-called ``Publication Market Cleansing Movement,'' and confiscated 
and burned 50,000 books and magazines. The report also says, many book 
stores have been shut down;

    <bullet> Ethnic Mongolian victims of the Chinese authorities' 
violations against free speech, free press, and free assembly:

    1. Mr. Hada--Author of ``Way Out of Southern Mongolia,'' also the 
president of the Southern Mongolian Democratic Alliance, has been 
sentenced to 15 years jail. Currently, he is still serving his 
imprisonment in Inner Mongolian Autonomous Region No.4 Prison in Chi 
Feng City;
    2. Mr. Tegexi--Vice president of the Southern Mongolian Democratic 
Alliance and the editor of ``Voice of Southern Mongolia,'' has been 
sentenced to 10 years jail since 1995. Currently, he is still in a jail 
near Huhhot City;
    3. 70 members of the Southern Mongolian Democratic Alliance were 
detained 
respectively 6 months to 3 days in 1995 for the so-called ``illegal 
association, illegal gathering, illegal lecturing;''
    4. Mrs. Xinna--Wife of Mr. Hada, co-owner of ``Mongolian Study 
Bookstore,'' had been detained three times for total length of 99 days 
for receiving Voice of America's telephone interview in 1996;
    5. Hutsuntegus--A leader of the Ih Ju League National Culture 
Society who tried to legally register the organization, has been 
sentenced to 5 years jail for ``illegal publishing and illegal 
propaganda.'' In 1991, he translated and distributed a book called ``Do 
Not Forget, Extinguished If Forget!;''
    6. Wang Manglai--Another leader of the Ih Ju League National 
Culture Society, has been charged 3 years jail for the same reason;
    7. 26 key individuals of the Ih Ju League National Culture Society 
were put under house arrest in 1991;
    8. Ulaan Shovuu--A teacher at Inner Mongolian University, has been 
sentenced to 5 years jail for ``passing on confidential document to 
foreigner'' in 1991. In fact, the so-called ``confidential document'' 
is a document regarding the authorities' violation against ethnic 
Mongolian basic human rights and fundamental freedom;
    9. Zhang Haiquan--A Mongolian student at Inner Mongolian University 
was detained 5 months for writing a 4-word sentence, ``Min Zhu Wan 
Sui'' which means ``Long Live Democracy!,'' on his classroom blackboard 
in 1992;
    10. Unag--Author of ``Prisoners Outside the Prison,'' had been 
detained three times for more than 9 months and brutally tortured 
during the detention;
    11. Chingdalai--Author of ``I Have Nothing Wrong, Never!,'' had 
been detained for 6 months in 2001 and brutally tortured by the police 
for expressing his desire to freedom;
    12. Ulziitogtoh--Author of `` I Am From Harahorin,'' had been 
detained for 3 months and now still being held under house arrest for 
expressing his ``strong 
national sentiment'' through the book;
    13. Altanbulag and Badarangui--Two young musicians, was arrested in 
2001 for ``distributing the splittism materials.'' In fact, the so-
called ``splittism materials'' are some open letters by ethnic 
Mongolian dissidents.

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
